                 National Aeronautics and Space Administration

                     OFFICE OF INSPECTOR GENERAL




                Extending the Operational Life of
                 the International Space Station
                           Until 2024




                              OFFICE OF AUDITS
IG-14-031
                                  AUDIT REPORT
(A-13-021-00)
                               SEPTEMBER 18, 2014
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ATV          Automated Transfer Vehicle
CASIS        Center for the Advancement of Science in Space
CRS2         Commercial Resupply Services round 2
CSA          Canadian Space Agency
ESA          European Space Agency
EVA          Extra-vehicular Activity
FAR          Federal Acquisition Regulation
FDO          Fee Determination Official
FY           Fiscal Year
GAO          Government Accountability Office
HTV          H-II Transfer Vehicle
IEA          Integrated Equipment Assembly
ISS          International Space Station
JAXA         Japan Aerospace Exploration Agency
kg           Kilogram
kW           Kilowatt
Ni-H2        Nickel-Hydrogen
OIG          Office of Inspector General
ORU          Orbital Replacement Units
ROS          Russian Orbital Segment
SAW          Solar Array Wings
SSP          Space Station Program
USOS         U.S. Orbital Segment


                                                              REPORT NO. IG-14-031
SEPTEMBER 18, 2014




                                                                                            OVERVIEW

       EXTENDING THE OPERATIONAL LIFE OF THE INTERNATIONAL
                   SPACE STATION UNTIL 2024

                                                                                              The Issue

   In November 2013, the International Space Station (ISS or Station) completed 15 years of
   continuous operation in low Earth orbit, marking a significant achievement in the history
   of human spaceflight. Two months later, the Administration announced its intent to
   extend Station operations until 2024. Originally designed and tested for a 15-year life
   span, the ISS may now operate for 26 years.

   The United States has invested almost $75 billion in the ISS – including construction,
   operating costs, and transportation – and NASA will continue to spend between $3 and
   $4 billion per year to maintain and operate the Station going forward.1 Historically, the
   Agency’s international partners have contributed to ISS operations and helped share
   associated expenses by providing astronauts, ground facilities, launch vehicles, and other
   items and services; however, the level of partner participation beyond 2020 is uncertain.
   A decision by one or more partners to end its participation would increase costs for
   NASA and any remaining partners.

   NASA continues to utilize the ISS as a research platform to study and mitigate a variety
   of human health risks that will facilitate long-term exploration missions. However, a
   major portion of the Station’s future success as a research platform hinges on the ability
   of the Center for the Advancement of Science in Space (CASIS) – the group that
   manages non-NASA research on the portion of the ISS known as the ISS National
   Laboratory – to attract sufficient interest and funding from private users and investors.




   1
       This investment includes $43.7 billion for construction and program costs through 2013, plus
       $30.7 billion for 37 supporting Space Shuttle flights, the last of which took place in July 2011. We
       validated construction and development, operations, and research costs; however, the actual cost of
       Shuttle flights is less certain. For example, Section 202 of the NASA Authorization Act for fiscal year
       (FY) 2000 (Pub. L. No. 106-391) established general cost limitations on the ISS and Space Shuttle
       programs and capped Shuttle costs at $380 million per launch. However, in August 2001 the
       Government Accountability Office (GAO) determined actual costs were closer to $759 million per
       launch. GAO, “NASA: International Space Station and Shuttle Support Cost Limits” (GAO-01-1000R,
       August 31, 2001). We used the GAO estimate (adjusted for inflation) in our cost calculation.



REPORT NO. IG-14-031
                                                                                                          OVERVIEW



     In this audit, we examined the challenges facing NASA in extending ISS operations until
     2024. Specifically, we assessed NASA’s (1) progress in certifying the Station’s structure
     and hardware for a longer lifespan, (2) cost and schedule estimates associated with the
     extension, and (3) efforts to increase utilization of the Station for exploration and other
     scientific research. We also examined several of the contracts associated with the
     Station, including the largest contract – the Boeing ISS Vehicle Sustaining Engineering
     Contract (Boeing Contract).

     Results

     We found that while NASA has identified no major obstacles to extending ISS operations
     to 2024, it must address several areas of risk to ensure continued safe operations. In
     addition, NASA projects its annual budget for the ISS Program to grow from $3 billion in
     FY 2014 to nearly $4 billion by FY 2020. However, with a 26 percent cost increase
     between FYs 2011 and 2013 and an average increase of 8 percent annually over the life
     of the Program, we believe the assumptions underlying NASA’s cost projections are
     overly optimistic and result in an understated projection of out-year expenses.2 Third,
     while utilization of the ISS for research continues to increase, NASA and CASIS
     continue to face challenges to maximizing its research capabilities.

     NASA Has Not Identified Major Obstacles to Extending ISS Operations to 2024 But
     Several Risks Require Mitigation. NASA continues to assess the long-term viability of
     the ISS and to date has identified no major obstacles to extending operations to 2024.
     Nevertheless, the Agency must address several risks. First, the ISS faces a risk of
     insufficient power generation due in part to faster than expected degradation of its solar
     arrays. Second, although most replacement parts have proven more reliable than
     expected, sudden failures of key hardware have occurred requiring unplanned space
     walks to repair or replace hardware. Third, although NASA has a robust cargo
     transportation system, it has a limited capacity to transport large replacement parts – such
     as solar arrays and radiators – to the Station. While the ISS Program is actively working
     to mitigate these risks, anticipating the correct number and type of replacement parts and
     transporting them to the ISS present major challenges to extending operations 10 or more
     years beyond the Station’s original expected service life. Additionally, the Program may
     have to augment the Station’s power generating capability due to continued degradation
     of the solar arrays.




     2
         ISS Program officials stated that these costs increases resulted from a number of unique factors they do
         not expect to reoccur, including acquisition of new hardware to accommodate commercial crew flights
         by commercial suppliers. However, our analysis shows costs have grown an average of 8 percent per
         year since inception of the Program in 1994.



ii                                                                                          REPORT NO. IG-14-031
OVERVIEW



   NASA’s Cost Projections for Future ISS Operations Appear Overly Optimistic.
   NASA officials have indicated they intend to maintain the ISS annual budget between
   $3 billion and $4 billion per year through 2024. In our judgment, this estimate is based
   on overly optimistic assumptions and the cost to NASA will likely be higher. First, much
   of the projected cost increase is attributable to higher transportation costs, and we found
   NASA’s estimate for transportation costs unrealistic. For example, NASA’s estimates
   for the cost of the commercial crew transportation services they expect to replace for the
   Russian Soyuz are based on the cost of a Soyuz seat in FY 2016 – $70.7 million per seat
   for a total cost of $283 million per mission for four astronauts. However, the Program’s
   independent government cost estimates project significantly higher costs when the
   Agency transitions to purchasing these seats from commercial companies. Second, the
   Agency’s international partners have yet to commit to participating in Station operations
   beyond 2020. Should they decide not to participate NASA and any remaining partners
   will likely face higher costs. While ISS Program officials have been seeking ways to
   reduce costs and consolidate resources, it is unclear whether these efforts will be
   sufficient to address anticipated cost increases, particularly because the Program does not
   expect to maintain any funding reserves over the next several years.

   Increased Utilization Not Expected to Fully Mitigate Human Health Risks While
   CASIS Continues to Face Challenges in Encouraging Research by Commercial
   Industry. While utilization of the ISS for research has increased, NASA and CASIS
   continue to face challenges. A significant amount of NASA research aboard the ISS
   involves mitigating risks associated with long-term human presence in space. However,
   the Agency will not be able to address all of these risks through ISS research even if
   Station operations continue through 2024. Accordingly, NASA needs to prioritize its
   research aboard Station to address the most important risks in the time available.

   With regard to CASIS, issues relating to funding and patent licenses and data rights
   continue to pose challenges to the organization’s efforts to attract private entities to ISS
   research. To date, CASIS has raised just $14,550 in cash and received pledges of
   $8.2 million to supplement NASA’s $15 million annual contribution. Moreover, CASIS
   officials reported provisions in its agreement with NASA that require researchers to
   assign certain patent licenses and data rights to the Government are deterring commercial
   stakeholders from conducting research on the ISS. To address this issue, NASA
   submitted proposed legislation in June 2013 to the Congress that would allow researchers
   to retain “all rights in inventions made … during the conduct of [Station] activities.”
   However, as of July 2014, the proposal has not been included in any legislation
   introduced in Congress.




REPORT NO. IG-14-031                                                                              iii
                                                                                       OVERVIEW



     Other Matters of Interest. The Boeing Contract, a cost-plus-award-fee instrument with
     a period of performance from 1995 through 2015, provides sustaining engineering to the
     U.S. segment of the ISS. The value of the contract is $17.3 billion. As part of this
     review, we analyzed NASA’s award-fee evaluation scores for the Boeing Contract and
     found discrepancies between the established guidance in the contract’s Award-Fee Plan
     and the fees awarded to Boeing. Specifically, the Award-Fee Plan provides for
     evaluations to be conducted using weighted scores with grades in each of four categories.
     However, NASA performed this evaluation for only two of the four categories. We
     found that by taking this approach NASA paid Boeing between $6.7 and $13.2 million in
     award fees we could not validate using the established criteria for the weighted
     evaluation scoring system.

     Management Action

     To reduce potential cost growth in the ISS Program, we recommended the Associate
     Administrator for the Human Exploration and Operations Mission Directorate continue to
     solicit commitments from international partners to improve ISS cost sharing. To ensure
     maximum use of the Station for scientific research, we recommended the Associate
     Administrator prioritize the human health risks to long-term exploration that must be
     mitigated prior to ISS decommissioning and that the Agency continue to pursue a
     legislative remedy to the patent license and data rights issue.

     In response to a draft of this report, the Associate Administrator concurred with each of
     our recommendations and proposed corrective action. We consider the proposed
     corrective action responsive to the recommendations to improve cost sharing and pursue
     a legislative remedy to the patent and data rights issues and will close those
     recommendations after verification of the proposed actions. However, with respect to our
     recommendation to prioritize human health risks, NASA has not yet completed a
     prioritized and integrated list of risks. Accordingly, we do not consider management’s
     proposed actions fully responsive and therefore the recommendation remains unresolved.

     In addition, NASA disagreed with our analysis of the Boeing award-fee process, and
     stated that we misinterpreted the facts and misconstrued the applicable regulations and
     program requirements. Specifically, the Associate Administrator stated that our analysis
     is premised on the inaccurate assumption that the Award-Fee Evaluation Plan “requires”
     the Agency to assign scores and points at the factor level, from which the final score
     “must” be arithmetically computed. The Associate Administrator said no such
     requirement exists in the Evaluation Plan or any other regulation or directive. He added
     that NASA officials based the award fees on a “qualitative assessment” of Boeing’s
     performance and that this was the most appropriate way to incentivize the company to
     perform well.




iv                                                                         REPORT NO. IG-14-031
OVERVIEW



   We disagree with the Associate Administrator’s characterization of our report. We did
   not state that NASA was required to use a weighted scoring system. Rather, because the
   Evaluation Plan established a system of weighted scores, we attempted to validate the
   award fees Boeing received using that system and found we could not do so. Indeed, as
   explained in this report, even though we assumed Boeing received a 100 percent score on
   two of the major performance factors – management and technical performance and
   safety and mission assurance – we still could not replicate Boeing’s award fee. We
   acknowledged in the report that NASA’s Fee Determination Official (FDO) could have
   increased Boeing’s award fee even if the Performance Evaluation Board had calculated
   weighted scores for all four factors instead of just two. However, we believe the Board’s
   failure to provide the FDO with this information made NASA’s award-fee process less
   transparent and perhaps less reflective of the company’s actual performance.

   This is not the first time we have questioned NASA’s award-fee practices. In a
   November 2013 report, we found that overly complex award formulas and a contract
   clause designed to hold contractors accountable for the quality of the final product that
   disregards interim performance evaluations have diminished the effectiveness of NASA’s
   award-fee contracts.3 We also found NASA failed to collect required data on award-fee
   contracts, thereby reducing its ability to measure their effectiveness. Two
   recommendations from that audit have yet to be resolved. Most significantly, NASA
   continues to disagree with the our position that the Agency’s practice of making unearned
   funds from interim award periods available in the final award pool circumvents a
   provision in the Federal Acquisition Regulation that prohibits Federal agencies from
   “rolling over” unearned fees to subsequent performance periods. In our view, NASA’s
   policy promotes a philosophy that as long as a mission ultimately provides good science
   data the Agency will overlook cost and schedule overages that occur during project
   performance.

   We incorporated management’s technical comments on our draft into the final report as
   appropriate. Management’s full response to our report is reprinted in Appendix C.




   3
       NASA OIG, “NASA’s Use of Award-Fee Contracts” (IG-14-003, November 19, 2013).



REPORT NO. IG-14-031                                                                           v
SEPTEMBER 18, 2014




                                                         CONTENTS

   INTRODUCTION
      Background _________________________________________ 1
      Objectives _________________________________________ 10

   RESULTS
      NASA Has Not Identified Major Obstacles to Extending
        ISS Operations to 2024 But Several Risks Require
        Mitigation _______________________________________ 11
      NASA’s Cost Projections for Future ISS Operations Appear
        Overly Optimistic __________________________________ 20
      Increased Utilization Not Expected to Fully Mitigate Human
         Health Risks While CASIS Continues to Face Challenges
         in Encouraging Research by Commercial Industry ________ 30
      Other Matters of Interest ______________________________ 40

   APPENDIX A
      Scope and Methodology _______________________________ 47
      Review of Internal Controls ____________________________ 48
      Prior Coverage ______________________________________ 49

   APPENDIX B
      ISS Top Program Risk Matrix ___________________________ 50

   APPENDIX C
      Management Comments ______________________________ 51

   APPENDIX D
      Report Distribution ___________________________________ 54




REPORT NO. IG-14-031
SEPTEMBER 18, 2014




                                                                                      INTRODUCTION


Background

   In November 2013, the International Space Station (ISS or Station) completed 15 years of
   continuous operation in low Earth orbit, marking a significant achievement in the history
   of human spaceflight. Efforts to inhabit outposts in space began in 1971 when the Soviet
   Union launched the world’s first space station, Salyut 1. NASA followed with Skylab in
   1973. Both Salyut 1 and Skylab housed crews for relatively short visits and were not
   capable of supporting long duration habitation. In 1986, the Russians launched the first
   module of Mir, the next-generation space outpost. Between 1989 and 1999, Mir hosted
   astronauts and cosmonauts from the United States, Russia, and other countries, and the
   Space Shuttle visited nine times. In the mid-1980s, the United States began negotiating
   with the Canadian, Japanese, and European space agencies to jointly build and operate a
   space station in low Earth orbit. Russia joined the partnership in 1993, and assembly of
   the ISS began in 1998. Constructed on-orbit between 1998 and 2011, ISS components
   were delivered and assembled in three phases. (See Figure 1.)

                                   Figure 1. ISS Assembly by Phase




   Source: NASA Office of Inspector General (OIG) presentation of NASA information.




REPORT NO. IG-14-031                                                                                 1
                                                                                                    INTRODUCTION



    The first module – the Russian-built, U.S.-funded Zarya – launched on a Russian Proton
    rocket in November 1998 and provided electrical power, storage, propulsion, and
    guidance for the Station. The following month a Space Shuttle delivered the U.S.
    module, Unity, which connected environmental control, life support, and electrical and
    data systems to the Station and provided six docking locations for connecting other
    modules. In July 2000, Russia launched the Zvezda Service Module, which provided the
    main living quarters for the crew as well as environmental systems, electronic controls,
    and additional docking locations. In November 2000, two Russian cosmonauts and one
    American astronaut became the first crew to live and work on the ISS. Almost 9 years
    later in May 2009, with the addition of the fourth and final power-generating section, the
    ISS became capable of supporting a crew of seven.4 Final assembly of the Station was
    completed in July 2011, with installation of platforms to support external payloads and
    the Alpha Magnetic Spectrometer.5 (See Figure 2.)

    The ISS is divided into two segments – the Russian Orbital Segment (ROS) and the U.S.
    Orbital Segment (USOS). The USOS segment is comprised of hardware from NASA,
    the European Space Agency (ESA), the Canadian Space Agency (CSA), and the Japan
    Aerospace Exploration Agency (JAXA).




    4
        Although the ISS can support a crew of seven, currently only six individuals can be on Station at one
        time to accommodate evacuation in case of an emergency. The Russian Soyuz capsule, which is
        currently the only vehicle transporting astronauts to the Station, has a three-person capacity and only two
        Soyuz capsules are attached to the Station simultaneously. Higher-capacity transport vehicles under
        development by private companies will enable NASA to increase the Station’s capacity to a full crew
        complement of seven.
    5
        The Alpha Magnetic Spectrometer collects protons, electrons, and other charged particles, for analysis by
        recording the number and type of particles that pass through its collectors, as well as information about
        their charge, mass, and velocity.



2                                                                                           REPORT NO. IG-14-031
INTRODUCTION



                                  Figure 2. Completed ISS




   Source: NASA.


   Value of the ISS. The ISS provides a platform to perform a wide variety of experiments
   focused on life and physical sciences, human research, exploration research, and
   technology development. According to NASA officials, the ISS serves an essential role
   in helping the Agency develop ways to mitigate human health risks associated with space
   travel, test new technology in anticipation of future long-term exploration missions, and
   serve as a research platform to improve life on Earth. Federal law directs NASA to
   pursue commercialization of low Earth orbit, and the ISS is the only existing
   micro-gravity platform upon which to perform research and determine commercially
   viable uses of low Earth orbit. NASA officials also point to other less tangible benefits
   of the Station, including maintaining U.S. leadership in space, supporting cooperation
   with international partners, and inspiring current and future engineers and scientists.




REPORT NO. IG-14-031                                                                           3
                                                                                                     INTRODUCTION



    ISS Costs. The final configuration of the ISS cost more, took longer to complete, and is
    less capable than NASA and its partners envisioned. NASA originally estimated
    assembly of the Station would be complete by 2002 at a total cost to the Agency of
    $17.4 billion. However, construction was not completed until 2011, and through fiscal
    year (FY) 2013 the Agency has spent approximately $74.4 billion for ISS development,
    operations, research, and associated Space Shuttle flights.6 Cost projections estimate
    NASA will spend an additional $20.6 billion between FYs 2014 and 2019.7

    Initial plans called for a space outpost that would serve more functions than the current
    Station, including as a manufacturing and a staging facility for other exploration
    missions.8 Further, the length of the ISS decreased from 493 to 357 feet, a 27.6 percent
    reduction compared to early plans, and crew capacity dropped from eight to seven. The
    cost growth, schedule delays, and functional changes resulted primarily from
    underestimation of the technical complexity of building the Station; changes in Federal
    Government funding priorities; and the Challenger and Columbia Space Shuttle
    accidents, which delayed and reduced the number of flights devoted to ISS assembly.9

    In FY 2013, NASA devoted $2.9 billion, or approximately 17.2 percent of its
    $16.9 billion budget, to the ISS Program.10 In comparison, funding for development of
    NASA’s heavy-lift rocket – the Space Launch System – was $1.4 billion and the
    accompanying space capsule (Orion) $1.1 billion. As shown in Figure 3, most ISS
    funding is devoted to system operations and maintenance (43 percent) and crew and
    cargo transportation (34 percent).




    6
         The $74.4 billion amount includes $30.7 billion for Shuttle flights. Section 202 of the NASA
         Authorization Act for FY 2000 (Pub. L. No. 106-391) established general cost limitations on the ISS and
         Space Shuttle programs, capping Shuttle launch costs at $380 million per launch. However, in August
         2001, the Government Accountability Office (GAO) found actual costs were closer to $759 million per
         launch. GAO, “NASA: International Space Station and Shuttle Support Cost Limits” (GAO-01-1000R,
         August 31, 2001). We used the GAO estimate in our cost calculation adjusted for inflation.
    7
         This totals almost $100 billion through 2019 – a figure often cited as the amount NASA spent to build
         and operate the ISS. However, the actual cost to date is closer to $75 billion. Differences in cost figures
         are partially due to variations in the cost-per-flight assumptions for the Space Shuttle, which has been
         estimated as high as $1.5 billion per launch including all direct and indirect costs. The Shuttle made 37
         flights to support ISS construction and operation.
    8
         Other planned functions included a transportation hub to process vehicles and payloads, a servicing
         facility, an assembly facility, and a storage depot.
    9
         Loss of the Challenger Space Shuttle in 1986 led to a significant reduction in the number of planned
         flights and missions. Further, after the loss of the Columbia Space Shuttle in 2003, NASA suspended
         flights to the Space Station for over 2 years.
    10
         Although the ISS Program spent $2.9 billion in FY 2013, its budget allocation was approximately
         $2.8 billion. The additional funds (about $91 million) rolled forward from previous years in accordance
         with NASA’s 2-year appropriation.



4                                                                                            REPORT NO. IG-14-031
INTRODUCTION



                         Figure 3. Allocation of FY 2013 ISS Operating Costs




   Source: NASA OIG analysis of ISS Program information.

   System operations and maintenance costs ($1.23 billion/43 percent) encompass expenses
   related to mission operations; hardware, including Orbital Replacement Units (ORU);
   and extra-vehicular activities (EVA) commonly known as space walks.11 In FY 2013, the
   ISS Program spent $90 million on ORUs and plans to spend $422 million more on these
   items between FYs 2014 and 2020. As of January 2014, NASA’s ORU inventory was
   valued at $1.1 billion, with half the inventory located on-orbit and half in storage on
   Earth.

   Crew and cargo transportation costs ($970 million/34 percent) include all transportation
   expenses to the Station. Crew transportation costs (13 percent) primarily reflect NASA’s
   payments to Russia for seats on the Soyuz capsule. Since retirement of the Space Shuttle
   in 2011, Soyuz is the sole means of transporting humans to the ISS. For the past several
   years, NASA has been working with several domestic companies to develop commercial
   crew transportation systems and hopes to procure crew transportation to the ISS from at
   least one commercial company by 2017.12 Once this occurs, NASA plans to purchase a




   11
        ORUs are ISS hardware items such as fluid pumps, electrical switches, and motors replaced upon failure
        or as part of routine maintenance.
   12
        Commercial Crew Program development funding is a separate budget line not included in this category.
        For more information about NASA’s Commercial Crew Program, see NASA OIG, “NASA’s
        Management of the Commercial Crew Program” (IG-14-001, November 13, 2013).



REPORT NO. IG-14-031                                                                                             5
                                                                                                  INTRODUCTION



    limited number of seats aboard the Soyuz as a backup. Cargo transportation costs
    (21 percent) consist of the money NASA pays to Space Exploration Technologies
    (SpaceX) and Orbital Sciences Corporation (Orbital) under its Cargo Resupply Services
    contracts with those companies to deliver supplies to the ISS.13

    Research costs ($273 million/10 percent) include expenses NASA incurs conducting
    exploration-related research aboard the ISS, as well as the $15 million annual award the
    Agency makes to the Center for the Advancement of Science in Space (CASIS). CASIS
    manages non-NASA research on the portion of the ISS known as the ISS National
    Laboratory (National Lab) pursuant to a cooperative agreement with the Agency.14

    Labor and travel costs ($223 million/7 percent) fund the salaries, travel, and other
    personnel expenses for the civil servants assigned to the ISS Program.

    Cargo and crew projects costs ($167 million/6 percent) include Station development
    projects such as the International Docking Adapter and a common communications box,
    which will provide a standard docking and communications interface for commercial
    crew and international partner vehicles.

    NASA funds these activities through 29 major contracts with a current value of
    $32 billion and an additional $4.6 billion in contract options.15

    ISS Supporting Contracts. Seventeen of NASA’s 29 major ISS contracts are
    cost-reimbursement vehicles pursuant to which the Agency agrees to pay all allowable
    costs incurred by the contractor as a function of delivering the covered services or
    products. Most of these contracts also include an “award fee” – an additional pool of
    money the contractor may earn depending upon its performance. Of the 17
    cost-reimbursement contracts, 15 include award-fee provisions. Properly structured
    award-fee contracts can reduce the risk of cost overruns, delays, and performance failures
    by providing a well-performing contractor the opportunity to earn additional money. The
    largest ISS contract, known as the Boeing Vehicle Sustaining Engineering Contract
    (Boeing Contract), is a cost-plus-award-fee contract. With a period of performance from
    1995 through 2015, the $17.3 billion Boeing Contract provides sustaining engineering to
    the U.S. segment of the ISS.


    13
         In addition to SpaceX and Orbital, ESA and JAXA also provide cargo transportation to the ISS. For
         more information about NASA’s commercial cargo transportation efforts, see NASA OIG, “Commercial
         Cargo: NASA’s Management of Commercial Orbital Transportation Services and ISS Commercial
         Resupply Contracts” (IG-13-016, June 13, 2013).
    14
         The NASA Authorization Act of 2005 (Pub. L. No. 109-155) designated the U.S. segment of the ISS as a
         national laboratory and directed NASA to work to increase utilization of the Station’s research
         capabilities by other Federal entities and the private sector. The NASA Authorization Act of 2010
         (Pub. L. No. 111-267) required NASA to enter into a cooperative agreement with a nonprofit
         organization to manage at least 50 percent of the Agency’s available research resources on the ISS.
    15
         NASA disbursed an additional $46.7 million for research through other contracts, grants, and cooperative
         agreements.



6                                                                                         REPORT NO. IG-14-031
INTRODUCTION



   Utilization and Research. Given the resources and effort expended to build the ISS,
   national leaders have emphasized the importance of maximizing the Station’s scientific
   research capabilities to benefit NASA’s human exploration efforts and the nation
   generally. Pursuant to Federal law, 50 percent of the U.S. research capability of the
   Station is to be dedicated to commercial and private entities and other Government
   agencies, and the other half to NASA research that, among other things, seeks to reduce
   risks associated with human space exploration.

   In 2011, NASA awarded CASIS a cooperative agreement to facilitate utilization of the
   National Lab. CASIS promotes scientific research in the Lab by directly soliciting
   potential users; educating them on the ISS’s research capabilities; and utilizing
   professional, academic, and personal contacts to match potential investors and
   researchers. CASIS stimulates research activity by funding proposals directly, matching
   outside investors with researchers, and encouraging self-funded research. NASA
   provides CASIS $15 million annually, at least $3 million of which the organization must
   use to fund research grants. In FY 2013, CASIS distributed $4.9 million in research
   grants.

   NASA measures utilization of the ISS in several ways, including crew time spent on
   research, number of scientific investigations, and occupancy rate of allocated research
   space.

   Crew Time. Crew time refers to the hours the crew devotes to research activities as
   opposed to other tasks, such as sleeping, exercising, eating, and personal time. NASA
   divides each 24-hour period into 11 hours for work activities and 13 hours for other
   activities. Of the 11 work hours, 2.5 are set aside for exercise and 2 for planning and
   work preparation. NASA allocates the remaining 6.5 hours as follows:

         Utilization and research (41 percent) – includes set-up, completion of scientific
          investigations, and removal of the items for return to Earth.

         Visiting vehicle traffic operations (27 percent) – includes time for preparing for
          vehicle arrival and departure. For cargo vehicles, the time to unpack, stow, and
          document the location of supplies and repack the vehicle with trash or other items
          for return to Earth is included in this category. For a crew vehicle, this category
          includes time for crew exchange and information handover.

         Maintenance (14 percent) – includes corrective and preventive maintenance
          activities.

         EVA operations (6 percent) – includes planning for spacewalk activities outside
          the ISS.

         Training (4 percent) – includes emergency egress training, depressurization
          response, Soyuz evacuation, simulated fire drills, emergency response, procedures
          review, and robotics proficiency.


REPORT NO. IG-14-031                                                                            7
                                                                                                     INTRODUCTION



              Routine operations (4 percent) – refers to crew meetings, stowage management,
               auditing of supplies, and public affairs events.

              Medical operations (3 percent) – includes maintenance of exercise and health
               monitoring equipment and other activities associated with monitoring the effects
               on the human body due to traveling and living in space.

              Resupply and outfitting (1 percent) – includes hardware and software upgrades
               and vehicle configuration changes.

    Occupancy of Allocated Space. NASA has 19 laboratory bays and 15 external sites that
    house research experiments on the ISS. The laboratory bays, which contain racks,
    freezers, and other infrastructure that support biological, life science, and other types of
    experiments, are located in the U.S., European, and Japanese labs. The external sites,
    located outside the ISS, are used primarily for astronomical studies, Earth observation,
    and technology development and demonstrations for robotics, materials, and space
    systems.

    Hardware Assessment and Certification. NASA and its international partners
    designed and tested the ISS for a 15-year life span – a benchmark the oldest segments of
    the Station surpassed in November 2013. The NASA Authorization Act of 2010
    extended the life of the Station until 2020, and NASA and its Canadian, Japanese, and
    European partners have certified that the ISS structure and hardware are sufficient to
    continue operations until that date.16 In January 2014, the President announced his
    support for extending Station operations until at least 2024.17 Prior to this announcement,
    NASA had initiated a feasibility assessment for continuing operations until 2028.18

    In order to predict the reliability of equipment aboard the ISS, NASA calculates a “mean
    time between failures” for each component and uses these figures to predict component
    life span, determine the need for ORUs, and manage procurement of new ORUs and
    repairs of existing units. The ISS Program performs an analytical assessment of its ORU
    inventory annually and uses a 90 percent functional availability target.19

    16
         Certification is the formal written act whereby a responsible official attests to the satisfactory
         accomplishment of specified activities and authorizes the specified hardware or software, procedures,
         facilities, or personnel for Program usage. Russian officials reportedly are nearing completion of
         certification of their portion of the ISS through 2020 but have not yet provided NASA with a written
         analysis.
    17
         As of July 2014, the House of Representatives had passed a NASA Authorization Act and the Senate was
         considering its version. Both bills include reporting requirements related to the Station’s
         technical/operational feasibility, financial, and international partnerships.
    18
         NASA defines an assessment as the method for performing verification or certification. For ISS
         certification, the focus is primarily on analytical assessments using the performance data from the
         15 years of ISS operation. NASA expects to complete its 2028 assessment in 2018.
    19
         Functional availability measures the overall performance of ISS logistics and maintenance capability to
         sustain the ISS on-orbit system operations and the achieved operating time for a system over a possible
         operating time.



8                                                                                           REPORT NO. IG-14-031
INTRODUCTION



   In the first several years of the ISS Program, NASA officials had difficulty predicting
   when failures would occur given that many parts were new, one-of-a-kind components.
   Over the past 15 years, as the Agency has received actual performance data, its ability to
   predict the “mean time between failures” has improved.20

   In order to prepare for unexpected component failures on the ISS, astronauts undergo
   extensive training, including preparations for EVAs to repair Station hardware and for an
   emergency return to Earth. Although the Station has experienced significant component
   failures over the years, no critical life support system has ever failed, mainly due to the
   levels of redundancy in the Station’s structural and operational systems. (See Table 1.)

            Table 1. Significant Station Events That Caused Operational Uncertainty
            Issue            Date               Description                     Corrective Action
    Air leak              January 2,   Minor air leak of up to five     Leak found in vacuum jumper hose
                          2004         pounds per day; no immediate     installed onto window of U.S.
                                       risk to crew                     segment; leak fixed
    Potassium             September    Russian-built oxygen generator   Spare parts delivered to repair the
    hydroxide leak        18, 2006     leaked potassium hydroxide;      oxygen generator; unit reactivated
                                       unit shut down
    Computer              June 14,     Three Russian computers shut     Failure caused by excessive
    malfunction           2007         down, resulting in the loss of   condensation on the units; computer
                                       capability to control Russian    network was rebuilt using new
                                       segment systems                  hardware; steps taken to prevent
                                                                        future condensation issues
    Solar panel tear      October      Solar panel tore during          Improvised cuff links installed to
                          30, 2007     deployment                       strengthen the area near the tear
    Solar Alpha           November     Unusual vibration noticed        Problem believed to have been
    Rotary Joint          2007         when repositioning right-side    caused by inadequate lubrication;
    (Solar Joint) not                  solar arrays; EVA conducted in   four EVAs conducted to replace
    working                            November 2007 found damage       11 trundle bearings in Solar Joint
    correctly                          to Solar Joint
    Coolant pump A        July 31,     Coolant pump module used to      Three EVAs conducted to replace
    malfunction           2010         circulate ammonia cooling        pump module
                                       fluid malfunctioned, causing
                                       ISS cooling capability to drop
                                       to 50 percent
    Orbital debris        June 28,     Orbital debris passed within     Crew entered Soyuz escape
    close call            2011         1,100 feet of the ISS            vehicles in preparation for possible
                                                                        strike from orbital debris



   20
        In a 2011 report, GAO found NASA was utilizing a reasonable method for predicting the “mean time
        between failures” of ORUs. GAO recommended NASA continually update its data based on actual
        performance in order to ensure increasingly accurate estimates. NASA concurred with the
        recommendation. See: GAO, “International Space Station: Approaches for Ensuring Utilization through
        2020 Are Reasonable but Should Be Revisited as NASA Gains More Knowledge of On-Orbit
        Performance” (GAO-12-162, December 2011).



REPORT NO. IG-14-031                                                                                           9
                                                                                                       INTRODUCTION



               Issue               Date                  Description                     Corrective Action
         Main Bus               Late 2011- MBSU malfunctioned causing            Two EVAs conducted to replace
         Switching Units        September ISS power capability to drop to        component with spare
         (MBSU)                 2012       75 percent available
         malfunction
         Ammonia leak           May 9,        Astronauts observed ammonia        EVA conducted to replace faulty
                                2013          leaking from coolant loop          pump controller box
         EVA Terminated         July 16,      Hardware failure caused water      Mishap accident board developed
         Early –                2013          to enter into astronaut’s helmet   49 recommendations. Suits were
         Spacesuit                            causing impaired breathing,        inspected, blockage was cleared,
         Malfunction                          vision, and communication          and astronauts resumed use.
         Coolant pump A         December      Coolant pump module that           Two EVAs conducted to replace
         malfunctiona           11, 2013      circulates ammonia cooling         pump module
                                              fluid malfunctioned and caused
                                              half the ISS to lose cooling
                                              power
         External               April 2014 Back-up Computer used to              EVA conducted to replace the
         Computer                          relay commands between                faulty computer with a spare
         Malfunction                       computers and systems outside
                                           the ISS failed
     a   We discuss coolant pump A in more detail later in the report.
     Source: NASA OIG review of ISS Program data.

     Inherent Risks of Human Spaceflight. Although NASA and its partners have enjoyed
     more than 15 years of successful flights to and from the ISS, space exploration remains
     an inherently risky endeavor.21 For example, NASA officials estimate a 1-in-42 chance
     in any given 6-month period that orbital debris will puncture the Station and cause a loss
     of pressurization. Applying this estimate over the life of the ISS equates to a 1-in-4
     chance of such a puncture. NASA has put in place a variety of contingency plans to
     avoid loss of mission or crew should a puncture or other emergency occur. For example,
     astronauts routinely train for an emergency evacuation using the docked Soyuz capsules.
     Although the risks involved in space exploration are apparent and subject to mitigation,
     NASA cannot fully eliminate them.

Objectives
     In this audit, we examined the challenges facing NASA in extending the ISS until 2024.
     Specifically, we assessed NASA’s (1) progress in certifying the Station’s structure and
     hardware for a longer lifespan, (2) cost and schedule estimates associated with the
     extension, and (3) efforts to increase utilization of the Station for exploration and other
     scientific research. See Appendix A for details of the audit’s scope and methodology, our
     review of internal controls, and a list of prior coverage.


     21
          Shuttle Columbia and its seven astronauts who were lost during reentry in February 2003 did not visit the
          Station.



10                                                                                              REPORT NO. IG-14-031
RESULTS




                          NASA HAS NOT IDENTIFIED MAJOR OBSTACLES
                             TO EXTENDING ISS OPERATIONS TO 2024
                             BUT SEVERAL RISKS REQUIRE MITIGATION

              NASA continues to assess the long-term viability of the ISS and to date has
              identified no major obstacles to extending operations to 2024. Nevertheless, the
              Agency must address several areas of risk. First, the ISS faces a risk of insufficient
              power generation due in part to faster-than-expected degradation of its solar arrays.
              Second, although most replacement parts have proven more reliable than expected,
              sudden failures of key hardware have occurred requiring unplanned space walks to
              repair or replace the hardware. Third, although NASA has a robust cargo
              transportation system for many supplies, the Agency has a limited capacity to
              transport large replacement parts such as solar arrays and radiators to the Station.
              While the ISS Program is actively working to mitigate these risks, anticipating the
              correct amount of replacements parts and transporting them to the ISS present major
              challenges to extending Station operations 10 or more years beyond its expected
              15-year service life. Additionally, the Program may need to augment the Station’s
              power generating capability due to continued degradation of the solar arrays.

NASA and its International Partners are Actively Assessing the
 Long-term Viability of ISS Structure and Hardware

   NASA has certified the U.S. segment of the Station and the Zarya module for operation
   through 2020, and to date has not identified any major structural, hardware, or software
   deficiencies that would prevent continued use of the ISS until 2024.22 As discussed
   earlier, the President recently proposed extending Station operations until 2024, and
   NASA is conducting a formal assessment of the possibility of extending operations four
   years beyond that date to 2028. At the same time, NASA’s international partners are
   assessing the viability of extending the service life of the portions of the Station for
   which they are responsible. Table 2 shows the status of assessments for extending the
   ISS until 2020 and 2028 for the United States and its partners.




   22
        As noted previously, although part of the ROS, NASA funded the Zarya module.




REPORT NO. IG-14-031                                                                               11
                                                                                                             RESULTS



                       Table 2. Status of ISS Structure and Hardware Assessments
           Partner            2020     2028                                     Status
                                               2028 extension analysis not expected until 2018; results heavily
      United States
                                               dependent on sufficient ORUs
                                               Russians have not identified any major issues in verbal discussions,
      Russia
                                               but NASA has not received any written studies or reports
                                               All work is complete to certify JAXA hardware through 2028;
      Japan
                                               adequate number of spare parts through 2020
      European Space                           Cleared both module and payload facilities and spares for 2028 life
      Agency                                   span
                                               Extension until 2020 has no major issues; limited spares for Mobile
      Canada
                                               Servicing System
                                                           Legend
                  Cleared with supportable plan in place to correct future deficiencies
                  Only minor issues identified so far that require mitigation
     Source: NASA OIG presentation of ISS Program data.

     NASA is analyzing the primary U.S. structural hardware components using a
     three-phased approach based on the parts’ delivery date to the ISS. The Agency has
     completed its assessment of almost all hardware included in the first two phases.

                                                                                           Phase I


                   Phase I – assessment of hardware
                    installed through summer 2001,
                    including the oldest U.S. segments such
                    as the Unity Node, which surpassed its
                    expected life span in December 2013.
                                                                                Source: NASA.



                                                                                          Phase II


                   Phase II – assessment of hardware
                    installed between summer 2001 and
                    November 2002. Expected life span for
                    these items expires in 2016-2017.

                                                                                Source: NASA.




12                                                                                              REPORT NO. IG-14-031
RESULTS



                                                                                    Phase III

                Phase III – assessment of hardware
                 installed between November 2002 and
                 February 2011. The expected life span
                 for this hardware expires between 2017
                 and 2026.

                                                                          Source: NASA.

   NASA has certified for operation through 2028 all Phase I and II hardware, except the
   P6 Integrated Equipment Assembly (IEA), one of the truss segments that forms the
   backbone of the ISS. Two of the Station’s solar arrays and other electrical equipment are
   attached to the P6 IEA. When the P6 IEA was delivered to the ISS in 2000, it was
   installed in a temporary location. Because of mission-related delays resulting from the
   Shuttle Columbia accident in 2003, the P6 IEA remained in the temporary location until
   October 2007, much longer than anticipated. Accordingly, NASA is taking extra steps to
   verify that the stresses exerted on the P6 IEA in the temporary location were within
   acceptable limits to certify the component through 2028. The P6 IEA analysis report is
   scheduled for release in September 2014, and ISS Program officials expect the truss will
   be cleared for continued operation.

   Analysis of all Phase III hardware is scheduled for completion by June 2018. While
   NASA does not anticipate any major issues, to further reduce risk the Agency initiated an
   additional study scheduled for completion by March 2015 of all Phase III hardware
   considered medium- or high-risk.23

Electrical Power Systems Face Risks Due to Faster-than-Expected
  Degradation of Key Hardware

   The ISS’s solar arrays – each of which is almost 240 feet in length when fully
   deployed – generate electricity for the Station’s electrical power system and use bearing
   motors to position the arrays toward the sun. Both the arrays and the motors have
   degraded more quickly than expected. NASA attributes the expedited solar array
   degradation to exposure to more space debris than anticipated. With regard to
   degradation of the bearing motors, ISS Program officials have identified a root cause and
   determined that additional lubrication will help alleviate the issue.




   23
        The Solar Joints are hardware designated a medium risk while the P3/S3 trusses are high risk.



REPORT NO. IG-14-031                                                                                    13
                                                                                                            RESULTS



     The USOS is equipped with eight Solar Array Wings (SAW) (see Figure 4). Two Solar
     Alpha Rotary Joints (Solar Joints) and eight bearing motors continuously position the
     arrays toward the sun to maximize collection of usable solar energy. Each array has an
     operational life of 15 years, and the first two units delivered and installed on the ISS will
     reach the end of their expected life spans in 2015. The remaining units will reach their
     expected life spans in 2021, 2022, and 2024 (two each year).

                                     Figure 4. The Eight SAWs of the ISS




     Source: NASA.

     The electricity generated by the solar arrays is distributed to the Station through eight
     channels. Each channel connects to three pairs of rechargeable Nickel-Hydrogen
     (Ni-H2) batteries, which provide electricity to the USOS during the eclipse portion of
     each ISS orbit.24 These batteries are recharged when the Station is orbiting in the direct
     path of the sun.

     The USOS electrical power system is designed to provide 76.4 kilowatts (kW) of
     electricity to the USOS segment, of which a maximum of 30 kW is required to support
     payloads and research. In addition, NASA has agreed to provide up to 12 kW of power
     to the ROS. Actual power demands have been less as payloads and research have been
     consuming only 7 to 12 kW per day on average and the USOS is transferring only about
     4 kW to the ROS.




     24
          The eclipse portion of each orbit around the Earth occurs when the ISS is in the Earth’s shadow and has
          no contact with the sun.



14                                                                                          REPORT NO. IG-14-031
RESULTS



   NASA designed each SAW to generate 30.8 kW of power and expected power output to
   diminish by about 1 percent per year over each unit’s operational life due to the harsh
   space environment, in particular micro-meteor strikes and radiation emitted by protons.25
   However, the SAWs are degrading faster than predicted. As shown in Table 3, the two
   oldest SAWs, Channels 2B and 4B, are degrading at an average rate of 1.8 percent per
   year, and the Channel 4A SAW is degrading at an average rate of 2 percent per year.

                                      Table 3. SAW Degradation Rates
             SAW                    End of Design Life                       Degradation Rate
    Channel 4A                             2021                                   2.0%
    Channel 2B                             2015                                   1.8%
    Channel 4B                             2015                                   1.8%
    Channel 2A                             2021                                   1.8%
    Channel 3A                             2022                                   1.7%
    Channel 1B                             2024                                   1.7%
    Channel 3B                             2024                                   1.6%
    Channel 1A                             2022                                   1.5%
   Source: NASA OIG presentation of NASA information.

   ISS Program officials are making plans to compensate for the faster-than-expected
   degradation rates of the solar arrays. First, the Russians plan to deliver a module (the
   Scientific Power Module) around 2019 that will increase the Station’s capability to
   generate power and eliminate the need for the USOS to provide them with power.
   Second, the ISS Program has the option to reconfigure the orientation of the solar arrays
   so they will generate approximately 2 to 3 kW more power (see Figure 5).26 Program
   officials believe the Station will be able to meet the 30 kW requirement once the
   Russians deliver their module and, if needed, the solar arrays are oriented to a position
   that maximizes exposure to sunlight and power generation.




   25
        Protons are charged subatomic particles and the main source of radiation astronauts receive during
        spaceflights.
   26
        To help the ISS maintain orbit, NASA has placed the solar arrays in a position that reduces aerodynamic
        drag on the ISS. However, this diminishes their capacity to generate electricity. Although repositioning
        would increase energy production, it would also increase drag and therefore make it more difficult for the
        Station to maintain orbit. To compensate for this, NASA would use more propellant to boost the Station
        back into the correct orbit.



REPORT NO. IG-14-031                                                                                                 15
                                                                                            RESULTS



            Figure 5. Solar Array Degradation Based on 30 kW Power Requirement




     Source: NASA OIG presentation of ISS Program data.

     Although NASA is confident it can address the accelerated degradation of the SAWs, the
     Agency also faces issues related to the bearing motors that rotate the SAWs toward the
     sun. One of the eight bearing motors is currently operating outside of specifications, but
     analysis has shown the effect on overall power generation is not significant. Although
     the Program developed contingency plans for replacing four of the eight motors, Program
     officials have instead decided to procure repair kits and execute a return-and-repair plan
     only if the motors lose full function.

     While NASA has plans for managing degradation of the SAWs, its ability to meet the
     30 kW power requirement for payloads and research depends on all of these pieces
     falling into place. If, to the contrary, degradation rates increase, bearing motors fail, or
     the Russians continue to require power from the USOS beyond 2019, NASA would need
     to devise a solution for generating additional electricity or begin rationing available
     power, with the latter option likely resulting in less research on Station. One possibility
     the Agency is considering is augmenting the existing solar arrays with smaller,
     redesigned arrays; however, managers have not yet approved a plan to proceed with this
     option.




16                                                                            REPORT NO. IG-14-031
RESULTS



ORUs Proven More Reliable than Anticipated but Risks Remain

   The ISS Program currently has more than $1.1 billion worth of spare ORUs on-orbit or
   on Earth, and NASA expects to procure an additional $420 million of ORUs through
   FY 2020. Nevertheless, NASA may not have sufficient spare ORUs to replace those that
   fail or exceed their operational lives. In addition, with retirement of the Space Shuttles,
   NASA has lost the capacity to launch the largest ORUs and therefore runs the risk it will
   not be able to replace this hardware should it fail.

   Lack of Spare ORUs Creates Risk. Beyond what is already being built or repaired, the
   ISS Program determined that only a small number of additional ORUs are needed in the
   near term – from 2014 through 2018 – to supplement those on-orbit or in a ready-to-fly
   status. However, continuing to operate beyond that date creates additional ORU-related
   risks NASA must manage. For example, the Agency’s most recent assessment shows
   that although the two Pump Module Assemblies (Pump Modules) currently on-orbit
   should be sufficient to sustain operation to 2018, six more would be needed to extend
   operations to 2028. The Pump Modules are part of the External Active Thermal Control
   System that reduces heat inside the USOS pressurized cabins (see Figure 6). The system
   consists of two independent loops – A and B – which collect heat from inside the Station
   and transfer it to radiators that expel the heat into space. The loops are redundant and
   each provides adequate heat dissipation should the other fail. The Pump Modules
   provide the flow and temperature control for the ammonia that runs through both loops.




REPORT NO. IG-14-031                                                                             17
                                                                                       RESULTS



                             Figure 6. Diagram of Thermal System Pump Unit




     Source: NASA’s ISS Program.

     The loop A Pump Module failed twice in the past 3 years, most recently in December
     2013. Although loop B continued to operate, loss of the loop A Pump resulted in no
     back-up capability.27 Although not classified as an emergency, NASA recognized the
     urgency of the situation and immediately scheduled two unplanned spacewalks during
     which astronauts replaced the failed unit. To accommodate the spacewalks, a cargo
     resupply mission was delayed until the following month. The ISS now has two fully
     functional spare Pump Modules on-orbit. ISS Program managers believe the current
     spares will be adequate until 2017 when a repaired Module will become available.

     A similar situation exists with the six External Active Thermal Control System radiators
     that transfer the heat absorbed by the system into space. NASA currently has one
     radiator ORU stored on-orbit and managers believe this will be sufficient to continue
     operation until 2018. However, two additional radiator ORUs would be required on-orbit
     to extend the Station to 2023, and one more to sustain operations until 2028.
     27
          Loop B has been operating for over 7 years without issue.



18                                                                        REPORT NO. IG-14-031
RESULTS




   Limited Capacity to Transport Large ORUs. Most of the spare ORUs currently
   on-orbit were flown and positioned on the ISS using the Space Shuttle, which was
   capable of transporting large ORUs. However, since retirement of the Shuttles, NASA
   does not have a vehicle capable of carrying a replacement SAW or Heat Rejection
   Subsystem radiator to the Station. Although Orbital has a design that could carry large
   ORUs and SpaceX is developing a heavy lift version of its Falcon launch vehicle, neither
   vehicle is expected to be available until 2015 at the earliest. Moreover, although NASA
   has other options to transport SAW or Heat Rejection Subsystem radiator replacements–
   for example, sending smaller, redesigned arrays on the current fleet of cargo spacecraft to
   augment the existing solar arrays – the Program believes the arrays will last until 2024
   and therefore has not approved such alternatives.

   Battery Replacement Dependent on Japanese Vehicle. Another large set of ORUs that
   will need replacing to extend ISS operations are the Ni-H2 batteries that provide
   electricity when the Station is in the eclipse portion of its orbit. The batteries had an
   expected operational life of 6.5 years, which has been extended to 10 years by
   reconditioning and lower-than-expected drainage rates. The oldest batteries on Station
   have been operating since 2006 and the newest since 2010. Accordingly, replacements
   will be needed to extend ISS operations beyond 2020.

   NASA plans to replace the Ni-H2 batteries with newly designed Lithium-Ion batteries,
   which have a greater capacity to store energy. One of the new batteries will replace two
   Ni-H2 models. NASA plans to deliver 24 of the new batteries in a series of four launches
   between 2017 and 2020 using Japan’s H-II Transfer Vehicle (HTV). The Japanese
   provide the HTV to NASA as part of a barter arrangement to offset their portion of ISS
   operational costs. During the course of this audit, the Japanese verbally agreed to delay
   two previously scheduled HTV launches to accommodate battery delivery missions in
   2016 and 2017 and to fly two additional missions in 2019 and 2020 to transport the
   remaining batteries. However, NASA officials told us the Japanese are reluctant to
   continue production of the HTV beyond 2020 because of the high cost of producing and
   operating the vehicle. With no HTV missions scheduled after 2020, NASA will lose the
   largest cargo vehicle currently available. Accordingly, if additional radiators and solar
   arrays are needed, NASA will have to either reduce the size of the ORUs or hope that
   commercial cargo vessels capable of transporting larger equipment are available.




REPORT NO. IG-14-031                                                                             19
                                                                                                            RESULTS




                                 NASA’S COST PROJECTIONS FOR FUTURE ISS
                                   OPERATIONS APPEAR OVERLY OPTIMISTIC

                NASA projects its annual budget for the ISS Program to grow from $3 billion in
                FY 2014 to nearly $4 billion by FY 2020. However, with a 26 percent rise in Station
                costs between FYs 2011 and 2013 and an average increase of 8 percent annually
                over the life of the Program, we believe the assumptions underlying NASA’s cost
                estimates are overly optimistic and result in understated budget projections.28
                Moreover, we found that the President’s FY 2015 budget request for the ISS is
                cumulatively $614 million less than projected life cycle costs for the next 5 years and
                underestimates the cost to the ISS Program of a new commercial cargo contract and
                the start of commercial crew missions.29 While ISS Program officials are seeking
                ways to reduce costs and consolidate resources, it is unclear whether these efforts
                will be sufficient to address anticipated cost increases, particularly since the Program
                does not expect to maintain funding reserves over the next several years.

NASA’s Transportation Cost Estimates are Understated

     NASA officials expect higher crew and cargo transportation costs to be the main driver of
     future increases in the cost of the ISS Program (see Figure 7). For example, by 2024
     transportation costs are expected to account for 59 percent of the Program’s total
     operating budget compared to 34 percent in FY 2013. The expected cost growth is
     mainly a result of two factors: the shift from purchasing seats on the Soyuz to entering
     into contracts with commercial crew companies and the shift from reliance on Japanese
     and European cargo vehicles to additional contracts with commercial cargo providers.30




     28
          Program officials stated that these cost increases resulted from a number of unique factors they do not
          expect to reoccur, including acquisition of new hardware to accommodate commercial crew flights by
          commercial suppliers. However, our analysis shows costs have grown an average of 8 percent per year
          since inception of the Program in 1994.
     29
          The FY 2015 President’s Budget Request includes projections through 2019.
     30
          NASA also expects commercial cargo providers to fly more often than in previous years (six flights per
          year in FY 2015 versus two in FY 2013 and four to five flights in FY 2014). In addition, increased
          utilization demand between FYs 2016 and 2020 will drive cost increases as the ISS Program supports
          NASA and commercial research needs.



20                                                                                          REPORT NO. IG-14-031
RESULTS



                   Figure 7. Life Cycle Cost Estimates from FY 2012 to FY 2024




   Note: Data for FYs 2012 and 2013 is actual data. FY 2014 data is projected based on current budget. FYs 2015
   through 2024 values are taken from the current ISS Program life cycle cost estimates based on the President’s 2014
   Budget Request.
   Source: NASA OIG analysis of ISS Program information.

   We found the assumptions underlying NASA’s future life cycle estimates for
   transportation costs unrealistic. For example, NASA estimates for commercial crew
   transportation are based on the cost of a Soyuz seat in FY 2016 – $70.7 million per seat
   for a total cost of $283 million per mission for four seats. However, the Program’s
   independent government cost estimates project significantly higher crew transportation




REPORT NO. IG-14-031                                                                                                    21
                                                                                                               RESULTS



     costs when using commercial crew companies.31 ISS Program officials explained they
     used the price of a Soyuz seat as a planning tool and are tracking the cost of commercial
     crew missions as a program risk, in essence acknowledging that the price for
     commercial crew missions is expected to be more than the current Soyuz prices paid by
     the Program.32

Continued Involvement of International Partners Needed to
  Maintain Costs

     NASA’s primary international partners on the ISS – the Russian Space Agency, JAXA,
     ESA, and CSA – have yet to commit to continued operation of the ISS beyond 2020.
     Russian support of the extension is particularly significant because the country provides
     three primary ISS capabilities: crew transportation via the Soyuz, the propulsion system
     to maintain proper altitude, and resupplies of fuel and water. Without continued Russian
     involvement, NASA would need to acquire these capabilities elsewhere.

     NASA expects to secure transportation for its astronauts from two commercial companies
     beginning in 2017.33 Assuming this comes to fruition, loss of the Soyuz would not be
     fatal to the Program. However, replacing the propulsion system used to boost the Station
     is more problematic. First, the Russian Progress vehicle routinely conducts reboosts to
     achieve altitude adjustments.34 Previously, ESA’s Automated Transfer Vehicle (ATV)
     also fulfilled this function (see Figure 8) but the ATV conducted its final mission on
     July 29, 2014. Second, the on-board system that adjusts and controls ISS altitude is
     located in the ROS service module. The U.S.-owned Functional Cargo Block, or Zarya
     Module, has an on board propulsion system as well, but testing has shown its engines are
     no longer usable.




     31
          The ISS Program’s independent government cost estimate takes into account the recurring cost of all
          flight hardware to support two flights per year, plus the cost of sustaining engineering; crew training and
          processing; mission, launch site, and return operations; insurance (contractor procured); and the ISS
          docking system.
     32
          Appendix B chronicles the top risks to the ISS program. Two of the three top risks – “Lack of Assured
          Access” and “ISS Operations Budget Reduction” – relate to concerns over the cost of commercial crew
          missions.
     33
          In September 2014, NASA awarded two fixed-price contracts worth a combined $6.8 billion to Boeing
          ($4.2 billion) and SpaceX ($2.6 billion) to complete development and certification of their respective
          spaceflight systems. Each contract also includes at least one test flight and between two and six
          operational flights to the ISS.
     34
          The ISS orbits Earth at an altitude that ranges from 370 to 460 kilometers (230 to 286 miles) and at a
          speed of 28,000 kilometers per hour (17,500 miles per hour). As a result of atmospheric drag, the Station
          is constantly slowed and must be boosted periodically in order to maintain its altitude.



22                                                                                            REPORT NO. IG-14-031
RESULTS



                 Figure 8. ESA Depiction of ATV Conducting Reboost of the ISS




   Source: Image courtesy of ESA.

   In addition, the Russians have been making four cargo flights a year to the ISS. A
   decision by the Russians not to participate would increase costs for the United States and
   any remaining partners since a portion of the upmass currently carried by Russian cargo
   vehicles would need to be delivered by the United States or remaining partner vehicles.
   For example, in the absence of the ATV and the possible discontinuation of the HTV,
   U.S. cargo carriers may need to redesign their vehicles to accommodate additional
   propellant storage tanks and other spare parts for continued support of Russian Segment
   functions necessary to operate the ISS.

   NASA also splits operations costs of common systems with JAXA, ESA, and CSA and
   has barter agreements for cargo transportation and other provisions with these agencies.
   If these arrangements are not updated to cover ISS operations beyond 2020, NASA
   would have to absorb additional expenses not accounted for in the Agency’s current life
   cycle cost estimates. For example, under the original Memorandums of Understanding
   between NASA and the international partners, NASA pays 76.6 percent, JAXA
   12.8 percent, ESA 8.3 percent, and CSA 2.3 percent. However, in the past, NASA and
   international partners have negotiated bi-lateral arrangements for NASA to cover a
   portion of the partner’s share of common systems operations costs in order to save



REPORT NO. IG-14-031                                                                            23
                                                                                                         RESULTS



     money. For example, one partner reached an arrangement with NASA in which they
     ceded a percentage of their crew utilization time, upmass, and crew flight opportunities in
     exchange for reducing their portion of shared costs. While in this case ISS Program
     officials stated the arrangement was beneficial to NASA, if one or more international
     partners chooses to discontinue or reduce involvement with the Station, NASA and
     possibly the remaining partners would have to cover those costs.

     In addition, ISS Program officials are in ongoing discussion with JAXA officials
     regarding the future of the HTV, which may not be available after 2020. NASA officials
     have stressed the importance of the upmass provided by the HTV. However, if Japan
     chooses not to continue involvement with ISS past 2020, NASA will have to address both
     an upmass and funding shortfall.

     Moreover, NASA may choose to make new barter arrangements with international
     partners that fulfill other Agency priorities at the expense of the ISS Program. For
     example, NASA and ESA officials reached an understanding in 2007 that ESA’s
     provision of five ATVs would meet its obligation for common systems operations costs
     and other costs projected through 2015.35 Later, NASA and ESA agreed to an
     arrangement under which ESA will supply the service module for the Orion test flight
     Exploration Mission-1 and various hardware components for Exploration Mission-2, but
     no additional ATVs after 2014. ISS Program officials noted that although this
     arrangement benefits the Orion Program and the overall Human Exploration and
     Operations Mission Directorate (of which ISS is a part), there is no plan for the ISS
     Program to recoup the value of the forgone ATVs from the Orion Program or other parts
     of NASA’s budget.36

     Capabilities of U.S. Commercial Partners. While purchasing additional cargo missions
     from SpaceX and Orbital to replace lost capacity from the ATV flights may be an option,
     NASA’s expectations for these companies and the price it expects to pay for these
     missions may prove unrealistic.37 In February 2014, NASA issued a request for
     information for CRS2, a follow-on to its current cargo resupply contract. Requirements
     in the request include:

               delivery of 14,250 to 16,750 kilograms (kg) per year of pressurized cargo,38

               delivery of 1,500 to 4,000 kg per year of unpressurized cargo,



     35
          The final ATV under this arrangement launched on July 29, 2014.
     36
          At the time the agreement was signed, NASA planned to use the Orion vehicle as an alternative means of
          delivering crew to the ISS.
     37
          Although SpaceX and Orbital are the only two companies currently providing cargo services to the ISS,
          other companies may respond to the solicitation for Commercial Resupply Services round 2 (CRS2). For
          the purposes of this discussion, we used specifications for the existing SpaceX and Orbital vehicles.
     38
          Pressurized cargo is transported under Earth-like atmospheric pressure.



24                                                                                        REPORT NO. IG-14-031
RESULTS



             return and disposal of up to 14,250 to 16,750 kg per year of pressurized cargo,

             disposal of 1,500 to 4,000 kg per year of unpressurized cargo,

             services are required to be provided in 4 to 5 missions per year, and

             a NASA budget to procure this service is anticipated between $1 billion and
              $1.4 billion per year.39

   The requirements reflect increased reliance on domestic companies due to the retirement
   of the ATV and may also represent the uncertain future of Japanese upmass
   responsibilities.

   In comparison to cargo missions completed under the original CRS contract, the new
   requirements reflect increased expectations for the commerical providers. Assuming the
   minimum pressurized requirement of 14,250 kg spread over the maximum of five
   missions per year at an annual cost of $1.4 billion, of the two commercial companies that
   currently transport cargo to the ISS – SpaceX and Orbital – only the SpaceX vehicle
   meets the requirements as written. However, even that vehicle is often limited by space
   available (volume) before the maximum weight is reached. Therefore, even SpaceX may
   not be able to deliver 14,250 kg in a given year in only five missions, depending on the
   density and volume of cargo and how it is packed. Table 4 compares CRS2 requirements
   with the current capabilities of SpaceX and Orbital.




   39
        In comparison, the 2008 CRS contracts required each partner deliver a minimum of 20,000 kg to the ISS
        over several flights – 12 for SpaceX and 8 flights for Orbital.



REPORT NO. IG-14-031                                                                                            25
                                                                                                          RESULTS



               Table 4. Current Commercial Cargo Transportation Capability versus
                                     CRS2 Requirements
                                                   Potential          Payload Returned
                           Average Price                                                      Available from
                                                  Pressurized           From ISS or
                           Per Mission ($                                                     2017 through
                                              Payload Delivered         Disposed Per
                            in millions)                                                           2024
                                              to ISS Per Mission           Mission
         CRS2
         Requirementa           $280               2,850 kg                 2,850 kg              Required
                                                Current Capabilities
                                                                    2,500 kg pressurized
                                                                         (returned)
                                                                    3,310 kg pressurized
         SpaceX                $133.3             3,310 kg            + unpressurizedc              Yes
         Orbital               $237.5             2,700 kg          2,000 kg (disposed)b            Yes
                                                       Legend
                 Current capability meets CRS2 requirements
                 Current capability does not meet CRS2 requirements
     a
         CRS2 figures based on minimum required pressurized delivery of 14,250 kg per year, for $1.4 billion
         per year, delivered over 5 missions.
     b
         Orbital’s return capability consists of waste disposal only.
     c
         SpaceX has the ability to return cargo to Earth.
     Source: NASA OIG analysis of NASA and open source data.

     In our judgment, it is unlikely NASA will obtain the increased capacity sought in the
     CRS2 request for a price similar to what it paid under the original CRS contract.
     Orbital’s cargo vessel does not meet the payload weight requirement and therefore would
     require additional development work. Moreover, given the tendency to exhaust available
     space on past cargo missions before reaching the maximum weight capacity of the
     vehicles, even SpaceX would likely have to redesign its vehicle to meet these
     requirements. Unless a new commercial cargo transportation company emerges to satisfy
     the requirements of the CRS2 request or SpaceX and Orbital redesign their capsules,
     NASA will need to procure more than the four to five missions contemplated in the
     request, which would increase costs to the Agency.




26                                                                                        REPORT NO. IG-14-031
RESULTS



Efforts to Reduce Operations and Maintenance Costs
   Given the expected increase in transportation costs and NASA’s desire to maintain a
   steady budget for the Program, ISS Program officials have made some progress in
   reducing operations and maintenance costs. For example, the Mission Operations
   Directorate expects to decrease costs by $445 million between FYs 2015 and 2020
   through workforce reductions and increased use of commercial off-the-shelf hardware. A
   large portion of these expected reductions are tied to the directorate finding a new, more
   cost‐effective way to run the Mission Control and training facilities. While it is possible
   that the 16 other offices and directorates supporting ISS could achieve efficiencies with
   the use of commercial off-the-shelf hardware, it is unclear they could achieve a similar
   amount of savings.40 Furthermore, the Defense Contract Management Agency, which
   provides contract management assistance for many ISS Program contracts, estimates
   operations costs will grow an average of 1 to 4 percent per year due to inflation and other
   factors.41

   In order to reduce costs, NASA continues to streamline operations. For example, ISS
   officials have reduced Mission Evaluation Room activities to significant on-orbit events
   only.42 Officials have also reduced software releases, EVA training runs, facility
   requirements, and program change requests. In addition, ISS Program officials are
   seeking ways to consolidate procurement activities and contracts.

   Moreover, ISS Program management said they plan to hold steady or further reduce costs
   by managing operations and the development, design, and construction of ORUs more
   efficiently. Because SpaceX can return ORUs from the Station, ISS officials plan to
   maximize opportunities to repair and refurbish ORUs rather than procure new equipment,
   which can result in substantial cost savings. For example, the cost to procure a new
   Remote Power Controller Module is $2.2 million per unit compared to an average of
   $267,000 to repair the unit.43

   However, this “repair rather than replace” strategy will not address all ORU issues for
   several reasons. First, some ORUs are simply too large to return to Earth or contain

   40
        The ISS Program consists of eleven separate offices that support the ISS directorate: Vehicle, Mission
        Integration and Operations, Avionics and Software, Safety and Mission Assurance/Program Risk,
        Development Projects, Program Planning and Control, Systems Engineering Integration, ISS
        Transportation Integration, Research Integration, Program Scientist, and External Integration. In
        addition, the ISS Program is supported by six Johnson Space Center (Johnson) directorates: EVA,
        Mission Operations Support, ISS Ground Processing and Research Projects, Flight Programs and
        Partnerships, Engineering Support, and Safety and Mission Assurance.
   41
        The average increase of 1 to 4 percent per year is based on direct labor rates and does not include
        adjustments for indirect expenses, medical insurance, and other items.
   42
        The Mission Evaluation Room is part of the Mission Control Center building at Johnson and is where the
        Station operators from multiple disciplines work to support certain ISS operations. Program officials at
        Johnson have worked to streamline and modernize these activities so that personnel can support
        operations remotely when required rather than being physically in the room on standby.
   43
        Remote Power Controller Modules are circuit breakers mounted on top of the Station’s central truss
        segment above the U.S. Laboratory Destiny.



REPORT NO. IG-14-031                                                                                               27
                                                                                                           RESULTS



     chemicals such as ammonia that cannot be safely transported. Second, repairs performed
     on the Station may require specialized training and equipment for the astronauts, which
     may not be feasible in many cases. In a situation where repair on the ground or on
     Station is not possible and a new ORU is needed, the Program may encounter
     obsolescence of parts or vendor resistance to undertake small production runs on
     specialty parts.

     Given these challenges, officials concede they are unlikely to identify further savings in
     operations and maintenance costs sufficient to offset increased transportation costs. To
     this end, Program officials believe any substantial budget savings are more likely to come
     from flying fewer missions than currently planned. However, flying fewer missions
     would negatively affect ISS support operations, such as getting supplies and ORUs to the
     Station and potentially mean less opportunity for research on Station. Furthermore, as
     noted earlier, projected tranportation costs may already be understated. Therefore, in our
     judgment it is unlikely that NASA will be able to maintain annual ISS operating costs
     between $3 and $4 billion through FY 2024.

     Lack of Reserves Reduces Flexibility. As of March 2014, the ISS Program projected an
     overall shortfall of $663 million in Cost Management Reserves between FYs 2015 and
     2018.44 This shortfall is based on the Program’s analysis of reserves needed to address
     potential but unidentified cost increases in systems operations and maintenance
     (FYs 2015 and 2016) and commercial crew and cargo services between FYs 2015 and
     2018 (see Table 5).

                         Table 5. ISS Cost Management Reserves as of March 2014
                                                                            Fiscal Year
                                           2014           2015     2016        2017       2018     2019     2020
      System Operations and                    $49         ($29)    ($43)         $93       $77      $79       $75
      Maintenance
      Research Operations                      $11           $9      $18          $19       $17      $15       $13
      Cargo and Crew                         $261           ($3)    ($93)      ($283)     ($447)     $84     ($54)
      Total                                  $321          ($23)   ($117)      ($171)     ($352)    $178       $35
     Note: Numbers are rounded and dollars in millions.
     Source: ISS Program Office.




     44
          Cost Management Reserves are funds held in reserve to cover potential but unidentified costs that may
          require additional funding. Reserves are projected based upon a Quantitative Risk Assessment of the
          Program to determine where additional funding may be needed and thus set-aside. Programs in
          development typically have a base percentage requirement for reserves but because the ISS Program is in
          its operations and sustainment phase, it has no minimum requirement.



28                                                                                           REPORT NO. IG-14-031
RESULTS



   The lack of adequate reserves reduces the ISS Program’s flexibility to cover unexpected
   costs. FYs 2016 through 2018 are especially critical as NASA begins paying for both
   new cargo contracts under CRS2 and commercial crew transportation contracts. The
   Program is responsible for any system upgrades due to Agency-directed increases in
   cargo capabilities and for the costs of the cargo and crew service contracts.45
   Furthermore, with regard to ORUs – reflected in System Operations and Maintenance in
   Figure 3 – Program officials told us that independent government cost estimators
   calculate expected costs at a 70 percent confidence level but actual costs can be higher.46
   If the actual cost to build ORUs exceeds the estimate, the extra funds come from
   reserves. Consequently, as the ISS ages and ORUs are replaced or repaired the need for
   these reserves may increase.




   45
        NASA developed commercial cargo and crew vehicles under separate programs. Cargo vehicles were
        developed under the Commercial Orbital Transportation Services Program and crew vehicles under the
        Commercial Crew Program. Once NASA contracts for cargo or crew services, the costs associated with
        the contracts and any system upgrades become the responsibility of the ISS Program rather than the
        development programs.
   46
        Actual cost for spare purchases currently underrun the independent government estimate by an average
        of 4 percent.



REPORT NO. IG-14-031                                                                                           29
                                                                                                          RESULTS




                                    INCREASED UTILIZATION NOT EXPECTED TO
                                       FULLY MITIGATE HUMAN HEALTH RISKS
                                          WHILE CASIS CONTINUES TO FACE
                                   CHALLENGES IN ENCOURAGING RESEARCH BY
                                                     COMMERCIAL INDUSTRY

                While utilization of the ISS for research has increased, NASA and CASIS continue
                to face challenges. Although NASA performs a variety of research on the ISS, a
                major part of its research efforts involve mitigating risks associated with long-term
                human presence in space.47 However, some of these risks cannot be adequately
                addressed through ISS research, and the Agency projects that even if ISS operations
                are extended through 2024 it will be unable to mitigate several known risks.
                Accordingly, NASA needs to prioritize its research to address the most important
                risks in the time available. With regard to CASIS, issues relating to patent licenses
                and data rights and funding continue to pose challenges.

ISS Utilization Increasing

     As we reported in July 2013, no single measure provides a complete picture of ISS
     utilization status. NASA uses three primary data points to assess utilization of the
     Station – average weekly crew time, number of investigations, and use of allocated
     space.48 Since the release of our 2013 report, each of these measures has continued
     to grow.

     Average Weekly Crew Time. Until commercial suppliers begin providing crew
     transportation in 2017, the ISS will remain limited to a six-person crew. As of October
     2013, NASA’s goal is to allocate an average of 35 hours per week to research-related
     activities. As shown in Table 6, average crew time dedicated to scientific research has
     increased steadily since the first ISS expedition not devoted to construction in September
     2011. For example, the average amount of time dedicated to research between
     September 2011 and March 2014 grew from 24.1 hours to 44.3 hours, an increase of
     84 percent and 127 percent, respectively, over NASA’s 35-hours-per-week goal. NASA
     is projecting average research time to decrease slightly to approximately 39.4 hours per
     week in mid-2014 when the crews begin reconfiguring the Station to prepare for
     commercial crew systems.




     47
          The NASA OIG is currently conducting a review on NASA’s efforts to mitigate astronaut health risks.
     48
          NASA OIG, “NASA’s Efforts to Maximize Research on the International Space Station” (IG-13-019,
          July 8, 2013). In addition to average weekly crew time, number of investigations, and use of allocated
          space, NASA also tracks upmass, downmass, and power, thermal, and data usage, but does not consider
          these measures primary indicators of research utilization.



30                                                                                         REPORT NO. IG-14-031
RESULTS



                           Table 6. Average Crew Time for Scientific Research
            Expedition                                  Date                  Hours (weekly average)
              21/22                               10/2009 to 3/2010                   28.9
              23/24                                3/2010 to 9/2010                   23.4
              25/26                                9/2010 to 3/2011                   23.7
              27/28                                3/2011 to 9/2011                   24.1
              29/30                                9/2011 to 4/2012                   35.8
              31/32                                4/2012 to 9/2012                   36.3
              33/34                                9/2012 to 4/2013                   38.2
              35/36                                4/2013 to 9/2013                   41.3
              37/38                                9/2013 to 3/2014                   44.3
              39/40                                3/2014 to 9/2014                   39.4a
   a Expedition   39/40 is projected. Data is through May 31, 2014.
   Source: NASA OIG analysis of NASA data.

   Number of Investigations. NASA has shown an upward trend in the number of active
   research investigations conducted over time. Between December 1998 and March 2014,
   539 investigations were performed aboard the ISS, with an additional 60 experiments
   scheduled to take place during Expedition 39/40, which ended in early September 2014.49
   Moreover, during expeditions 33/34 NASA conducted 114 experiments, compared to 168
   experiments planned for Expedition 39/40, a 47 percent increase.

   Use of Allocated Space. As shown in Table 7, the internal space allocated for research
   in the U.S. portion of the ISS was about 70 percent occupied as of the first
   nonconstruction related period of September 2011 to April 2012. This rate increased to
   80.7 percent in March 2014 – a 15 percent increase – with an additional increase to
   86.3 percent occupancy planned during Expedition 39/40. NASA management told us
   their goal is to accommodate all research needs, not necessarily achieve full occupancy.
   They noted that 100 percent occupancy may not be feasible or desirable given the power,
   thermal, and data usage constraints it would place on the ISS.




   49
        In July 2013, we reported NASA had performed 527 total investigations aboard the ISS between
        December 1998 and September 2012. However, thereafter NASA recategorized certain educational
        activities and excluded them from the count of total investigations.



REPORT NO. IG-14-031                                                                                   31
                                                                                                     RESULTS



                                         Table 7. Internal Occupancy Rates
             Expedition                             Date                       Percentage occupied
               21/22                          10/2009 to 3/2010                    Not tracked
               23/24                          3/2010 to 9/2010                     Not tracked
               25/26                          9/2010 to 3/2011                     Not tracked
               27/28                          3/2011 to 9/2011                     Not tracked
               29/30                          9/2011 to 4/2012                        70%
               31/32                          4/2012 to 9/2012                        70%
               33/34                          9/2012 to 4/2013                        71%
               35/36                          4/2013 to 9/2013                        81%
               37/38                          9/2013 to 3/2014                       80.7%
               39/40                          3/2014 to 9/2014                       86.3%a
     a Expedition   39/40 is planned data as of May 31, 2014.
     Source: NASA OIG analysis of NASA data.

     As shown in Table 8, NASA’s external sites were about 31 percent occupied during the
     first nonconstruction period from September 2011 to April 2012. ISS Program officials
     expect this rate will increase to 55 percent during Expedition 39/40 – a 77 percent
     increase.

                                         Table 8. External Occupancy Rates
            Expedition                              Date                       Percentage occupied
              21/22                           10/2009 to 3/2010                    Not tracked
              23/24                            3/2010 to 9/2010                       13%
              25/26                            9/2010 to 3/2011                       13%
              27/28                            3/2011 to 9/2011                       31%
              29/30                            9/2011 to 4/2012                       31%
              31/32                            4/2012 to 9/2012                       37%
              33/34                            9/2012 to 4/2013                       37%
              35/36                            4/2013 to 9/2013                       37%
              37/38                            9/2013 to 3/2014                      37.5%
              39/40                            3/2014 to 9/2014                       55%a
     a Expedition   39/40 occupancy rate is planned data as of May 31, 2014.
     Source: NASA OIG analysis of NASA data.




32                                                                                      REPORT NO. IG-14-031
RESULTS



Although Extension of the ISS to 2024 Provides Greater
  Opportunities to Mitigate Human Health and Performance
  Risks, Some Risks Will Remain Unresolved

   NASA has identified 23 types of human health and performance risks associated with
   long-term space exploration that can be mitigated aboard the ISS.50 According to NASA
   officials, the ISS provides an optimal microgravity environment to conduct experiments
   that enable the Agency to develop measures to mitigate many of these risks. Extending
   ISS operations until 2024 would put the Agency in a better position to address 12 of these
   23 risks, including decompression sickness, reduced muscle mass, fatigue-induced errors,
   and cardiac rhythm problems. In comparison, NASA would have time to address only
   5 of the 23 risks should ISS operations end in 2020.

   Extension to 2024 Not Enough Time to Mitigate Some Risks. While continued
   operation of the ISS until 2024 will allow for the mitigation of additional risks, NASA
   will be unable to address 11 types of risk on the ISS until sometime after that date:

             Human-computer interaction (planned mitigation for December 2025) – risk of
              inadequate human-computer interaction.

             Inadequate food system (planned mitigation for December 2026) – risk of
              performance decrement and crew illness due to an inadequate food system.

             Errors due to training deficiencies (planned mitigation for December 2027) – risk
              of performance errors due to inadequate training.

             Occupant protection (planned mitigation beyond 2028) – risk of injury during
              launch and landing.

             Early onset osteoporosis (planned mitigation beyond 2028) – risk of early onset
              of osteoporosis due to spaceflight.

             Altered immune response (planned mitigation beyond 2028) – risk of crew
              adverse health event due to altered immune response.

             Bone fracture (planned mitigation beyond 2028) – risk of bone fracture during
              mission.

             Unpredicted effects of medication (planned mitigation beyond 2028) – risk of
              clinically relevant unpredicted effects of medication during mission.


   50
        Long-term space exploration refers to the duration of the mission and/or the distance traveled. While a
        mission of 6 months or more on the ISS qualifies as a long-term mission, we are referring to planetary
        and asteroid retrieval missions that require a longer duration to travel beyond the ISS and low Earth
        orbit. NASA’s Human Research Program has identified a total of 32 human health risks in long duration
        space travel, 9 of which cannot be mitigated aboard the ISS.



REPORT NO. IG-14-031                                                                                              33
                                                                                         RESULTS



            Vestibular/sensorimotor impacts (planned mitigation beyond 2028) – risk of
             impaired control of spacecraft, associated systems, and immediate vehicle escape
             due to coordination issues.

            Behavioral conditions (planned mitigation beyond 2028) – risk of adverse
             behavioral conditions and psychiatric disorders.

            In-flight medical capabilities (planned mitigation beyond 2028) – risk of
             unacceptable health and mission outcomes due to limitations of in-flight medical
             capabilities.

     Failure to alleviate these risks would hinder NASA’s ability to ensure crew health and
     wellness and to maintain spaceflight capabilities and functionality during long duration
     exploration missions. In lieu of ISS-based efforts, officials plan to develop less optimal
     ground-based methods to develop mitigation strategies. For example, NASA officials
     said they can develop solutions to address muscle-related issues by conducting
     ground-based experiments. In addition, while astronauts regularly spend 6 months
     aboard the ISS, NASA assigned astronaut Scott Kelly to a 12-month mission beginning in
     2015. Program officials hope to address a variety of human health risks during this
     mission while also conducting examinations on his twin brother, Mark Kelly, as an
     on-Earth control. According to officials, if NASA is not able to fully mitigate these
     risks – either on the ISS or in ground labs – long duration missions will require the
     Agency to accept the risks in order to move forward.

     Some Risks Cannot Be Fully Mitigated on the ISS. NASA is working to address two
     additional health and performance risks the Agency cannot mitigate with current Station
     capabilities and within the current ISS life span:

            Human and automation/robotic (planned mitigation for December 2027) – risk of
             inadequate design of human and automation/robotic integration.

            Radiation exposure on human health (planned mitigation beyond 2028) – risk of
             space radiation exposure to human health during mission.

     NASA officials said risks involving human and robotic integration are not yet fully
     understood and a framework for examining them is being developed. Moreover, the tools
     and metrics for doing so will not be available until 2024. The effects of radiation
     exposure on human health cannot be addressed aboard the ISS because of the Station’s
     relatively close proximity to the Earth’s radiation belts and the protection those belts
     provide from space-based radiation.




34                                                                         REPORT NO. IG-14-031
RESULTS



CASIS Continues to Make Progress But Faces Challenges in
  Encouraging Participation by Commercial Industry

   CASIS continues to make progress in facilitating private research aboard the ISS.
   Although NASA is required to allocate ISS resources equally between its own research
   and research managed by CASIS, CASIS receives relatively little direct funding from the
   Agency – only $15 million a year.51 In contrast, NASA spent approximately
   $273 million in FY 2013 to conduct and support other research.

   Given the limited funding it receives from NASA, attracting private funding is essential
   for CASIS to succeed in its mission. However, outreach to and participation by
   commercial industry remains a challenge. Moreover, CASIS officials believe provisions
   in the cooperative agreement relating to patent licenses and data rights are inhibiting
   commercial participation.

   CASIS’s Recent Progress. In January 2014, the first CASIS-sponsored payloads were
   delivered to the ISS. These payloads included five experiments and investigations
   ranging from an examination of spaceflight-induced effects on antibiotics to the
   production of an audio-video book of astronauts conducting simple science experiments
   for children. A second round of CASIS payloads launched in April 2014 included
   experiments on protein crystallization and plant development.

   Additionally, CASIS developed annual performance metrics to measure its progress in
   fostering private research aboard the ISS. In our July 2013 report, we found CASIS’s
   FY 2012 performance metrics were focused on achieving organizational milestones
   rather than measuring how successful the organization has been in encouraging research
   on the ISS. To address this shortcoming, CASIS developed eight annual performance
   metrics for FY 2014:

             Description of the Board of Directors plan to proactively generate interest and
              market opportunities as well as stimulate unsolicited proposals.

             Number and description of research pathways identified by CASIS that will be
              targeted via grants and the Board of Directors.

             Number of publications from projects related to CASIS activities.

             Number of patents from projects related to CASIS activities.

             Number and market value (if available) of products brought to market related to
              CASIS activities.



   51
        The NASA Authorization Act of 2010 provides “ISS national laboratory managed experiments shall be
        guaranteed access to, and utilization of, not less than 50 percent of the United States research capacity
        allocation.” This includes sharing data, electrical, crew time, and occupancy resources.



REPORT NO. IG-14-031                                                                                                35
                                                                                                            RESULTS



               Economic impacts from use of the ISS National Lab, if available.

               Changes in awareness among key stakeholder groups.

               Changes in requests for information from CASIS on behalf of outside parties.

     CASIS plans to report its progress against these metrics to NASA in October 2014.

     Attracting Private Funding Continues to Prove Difficult. As of July 2014, CASIS
     had collected only $14,550 in cash donations, although donors have pledged an additional
     $8.2 million, $25,000 of which will be in-kind transfers. In our July 2013 report, we
     highlighted several factors that make attracting private funding to the ISS a challenge.
     First, NASA historically has received little interest from private entities for ISS research
     absent a substantial infusion of government funds. Second, in some cases ground-based
     research provides similar results at significantly less expense than conducting research on
     the ISS.52 Third, the majority of the research activities conducted aboard the ISS have
     related to basic research as opposed to applied research.53 Finally, potential ISS partners
     noted that without sufficient funding to produce a proof-of-concept result aboard the ISS,
     it will be difficult to persuade additional partners to self-fund research.

     CASIS continues to refine its efforts to reach potential donors through a variety of means,
     including conferences, networking, and solicitations. In addition, CASIS officials told us
     they continue to pursue cost-sharing options with partners as a means to fund
     experiments. For example, CASIS partners provide their own funds to support on-Earth
     monitoring and post-experiment analysis of projects. However, it is too early to tell
     whether these efforts will result in significant additional private funding for research
     aboard the ISS.

     Patent License and Data Rights Obligations and NASA’s Annual Allocation. Under
     the 2011 cooperative agreement with NASA, CASIS and its partners must transfer patent
     licenses and data rights related to federally supported research conducted on Station to
     the Government. Federally supported research includes experiments conducted aboard
     the ISS as well as pre- and post-experiment analysis and discoveries funded by the
     Federal government via NASA’s annual $15 million award. CASIS officials reported
     this provision was deterring commercial stakeholders from conducting research on the
     ISS. For example, according to CASIS officials, pharmaceutical and consumer products
     companies have indicated they will not design commercially significant experiments for
     the ISS if they must transfer associated patent licenses and data rights to the United
     States. In 2012, CASIS and NASA amended the patent license and data rights provision

     52
          For example, researchers conducted experiments on protein crystallization in space for several years
          because microgravity afforded researchers the optimal environment in which to crystalize proteins.
          However, techniques to conduct such research have improved to the point that some protein
          crystallizations can be performed in ground-based labs.
     53
          Basic research increases the understanding of fundamental science, such as physics and biology. Applied
          research facilitates the practical application of science in a product, such as developing more efficient
          materials.



36                                                                                          REPORT NO. IG-14-031
RESULTS



   in the cooperative agreement to limit the Government’s right to data generated aboard the
   ISS. Under the revised provisions, although NASA still maintains rights to data
   developed on the ISS, the research entity has more control over the data. According to
   CASIS officials, the changes have not fully alleviated commercial stakeholders’
   concerns.

   If intellectual property rights remain an issue for commercial stakeholders, it may be
   difficult for CASIS to solicit significant commercial participation to conduct research
   aboard the ISS. CASIS officials reported that although some commercial partners have
   continued utilizing the ISS, they have limited their participation to fundamental research
   not likely to generate significant intellectual property. The officials assert that that
   without additional adjustments to the intellectual property aspects of the cooperative
   agreement – through legislative changes – commercial stakeholders may refrain from
   conducting research that has the potential to lead to breakthroughs in a variety of fields.

   To address this issue, in June 2013 NASA submitted a proposed legislative amendment to
   the National Aeronautics and Space Act of 1958 to Congress that includes revised
   provisions related to the retention of patent licenses and data rights on behalf of ISS
   National Lab users. The proposed legislation allows a National Lab user to retain “all
   rights in inventions made … during the conduct of [National Lab] activities.” However,
   as of July 2014 the proposal had not been included in any congressional legislation. In
   our judgment, these revisions would help to alleviate commercial stakeholders’ concerns
   over data rights, which in turn may increase commercial utilization of the ISS.

Conclusion

   NASA has not identified any major technical issues in extending the ISS’s service life to
   2024, but the Program’s detailed assessment of the overall structure is still
   ongoing. Moreover, several identified risks will require continuing mitigation such as
   potential shortages in electrical power, unexpected ORU failures, and the limited capacity
   to transport large ORUs to the ISS. Furthermore, the harsh space environment contains
   unexpected challenges for which Program officials constantly prepare.

   Additionally, NASA’s intent to maintain the ISS’s budget between $3 and 4 billion
   through 2024 will be extremely challenging given projected cost increases costs for cargo
   and crew transportation services. With cost increases of 26 percent between FYs 2011
   and 2013, NASA will find it difficult to reduce such growth in future years while
   avoiding negative impacts on other high-priority programs like the Space Launch System
   and Orion. Moreover, absent any funding reserves, the ISS Program may need to borrow
   from other Agency programs to meet cost growth.




REPORT NO. IG-14-031                                                                             37
                                                                                              RESULTS



     While current metrics show research on the ISS continues to increase, obstacles remain
     for NASA and CASIS to ensure full utilization of the platform’s research capabilities. In
     addition, while the Station’s extension until 2024 will allow NASA to develop measures
     to mitigate more of the identified risks posed by long-term space travel, the Agency will
     be unable to address all risks. As for the National Lab, three CASIS-sponsored payloads
     were successfully delivered to the ISS and the organization continues to conduct outreach
     activities and solicit experiments. However, in order to attract significant interest and
     funding from the commercial sector, NASA and Congress must address issues involving
     patent licenses and data rights agreements.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
     In order to reduce potential cost growth in the ISS Program, we recommended the NASA
     Associate Administrator for the Human Exploration and Operations Mission Directorate
     do the following:

     Recommendation 1. Continue to solicit commitments from international partners to
     improve cost sharing.
        Management’s Response. The Associate Administrator concurred with our
        recommendation, noting that all ISS partners seek efficiencies to reduce costs. NASA
        did not provide a completion date as this proposed action is ongoing.

        Evaluation of Management’s Response. We consider NASA’s proposed corrective
        actions responsive; therefore, the recommendation is resolved and will be closed upon
        verification of the actions.

     To ensure maximum use of the ISS for scientific research, we recommended the
     following:

     Recommendation 2. The NASA Associate Administrator for Human Exploration and
     Operations Mission Directorate continue to track, manage, and mitigate human health
     risks to long-term exploration and identify and prioritize those risks that must be
     mitigated prior to decommissioning of the ISS.
        Management’s Response. The Associate Administrator concurred with our
        recommendation, and explained that the Human Research Program, Flight Medicine
        Group, and the ISS Program jointly review the Human Research Program’s health risk
        mitigation list to ensure all efforts conducted on the ISS are as efficient and effective as
        possible. NASA did not provide a completion date as this proposed action is ongoing.

        Evaluation of Management’s Response. Despite the Associate Administrator’s
        concurrence and explanation that processes are in place for an integrated review of
        health risks, NASA has not completed a prioritized and integrated list of these risks.
        Accordingly, we do not consider management’s actions fully responsive and the
        recommendation remains unresolved.


38                                                                              REPORT NO. IG-14-031
RESULTS



   Recommendation 3. The Agency continue to pursue legislative options that will address
   patent license and data rights.
      Management’s Response. The Associate Administrator concurred with our
      recommendation, noting that in June 2013 NASA submitted to Congress a legislative
      proposal titled “Retention of Intellectual Property Rights by Users of the International
      Space Station National Laboratory,” that would authorize users to retain intellectual
      property rights arising from ISS National Laboratory activities. NASA said it will
      continue to work with the Administration to press Congress to act on the proposed
      legislation.

      Evaluation of Management’s Response. We consider the Associate
      Administrator’s proposed corrective actions responsive; therefore, the
      recommendation is resolved and will be closed upon verification of the proposed
      actions.




REPORT NO. IG-14-031                                                                             39
                                                                                                         RESULTS




                                                                                   OTHER MATTERS

Award-Fees for the Boeing Company

     As noted previously, the ISS Program has entered into 29 major contracts with a current
     value of $32 billion, 15 of which are cost-plus-award-fee contracts with a current
     combined total value of $22.4 billion. This category includes the Boeing Contract,
     valued at $17.3 billion.54

     The GAO, NASA OIG, and others have reviewed NASA’s use of award-fee contracts. In
     January 2007, GAO issued a report finding that NASA does not consistently follow its
     award-fee guidance and that award fees paid by the Agency did not consistently correlate
     with contractor performance.55 In our November 2013 report, we found a number of
     questionable practices, including overly complex formulas and a contract clause designed
     to hold contractors accountable for the quality of the final product that disregards interim
     performance evaluations, have diminished the effectiveness of award-fee contracts at the
     Agency. We also found NASA failed to collect required data on award-fee contracts,
     reducing its ability to measure their effectiveness. We identified incorrect payments and
     questioned costs totaling $69.7 million and concluded NASA expended approximately
     $7.4 million to administer performance evaluations on contracts for which performance
     objectives were undefined, determinations that an award-fee contract was the most
     beneficial type of contract were not made, and relevant management information for
     informed decision-making was not gathered.56

     Properly administering award-fee scores is the foundation for determining that award fees
     correlate with contractor performance. As part of this review, we analyzed NASA’s
     award-fee evaluation scores for the Boeing Contract. We found discrepancies between
     the established criteria in the contract’s Award-Fee Plan and the fees awarded to Boeing.
     Specifically, the Award-Fee Plan provides for evaluations to be conducted using
     weighted scores with grades in each of four factors. However, NASA performed this
     evaluation for only two of the four factors. We found that by taking this approach NASA
     paid Boeing between $6.7 and $13.2 million in award fees we could not validate using
     the established criteria for the weighted evaluation scoring system.




     54
          NASA initially awarded the contract on January 13, 1995, and amended it on August 25, 2010, to extend
          the period of performance to September 30, 2015.
     55
          GAO, “NASA Procurement: Use of Award Fees for Achieving Program Outcomes Should Be Improved”
          (GAO-07-58, January 17, 2007).
     56
          NASA OIG, “NASA’s Use of Award-Fee Contracts” (IG-14-003, November 19, 2013).



40                                                                                       REPORT NO. IG-14-031
RESULTS



   The Federal Acquisition Regulation (FAR) and NASA FAR Supplement, along with the
   NASA Award-Fee Contracting Guide establish guidance for conducting contractor
   performance evaluations.57 Under the guidance, each evaluation factor is assigned a
   specific percentage weight with the cumulative weight of all factors totaling 100. During
   an award-fee evaluation, the Agency scores each factor between 0 and 100 and multiplies
   by the weighting for that factor to determine the weighted score.58 For example, if a
   factor has a weight of 60 percent and the numerical score for that factor is 80, the
   weighted technical score is 48 (80 x 60 percent). The weighted scores for each
   evaluation factor are added to determine the total award-fee score. Scores for each
   evaluation factor are multiplied by the respective weight to determine an overall score.
   In Figure 9, the contractor’s overall evaluation score was 91, entitling it to 91 percent of
   the total amount of award fee available for that period.

                  Figure 9. Illustration of Weighted Award-Fee Score Calculation




   Source: NASA OIG.




   57
        FAR 16.401(e)(3), NASA FAR Supplement 1816.405-274, NASA FAR Supplement 1816.405-275, and
        NASA Award-Fee Contracting Guide, 3.6.1 “Award-Fee Rating Table,” and 3.6.4, “Calculating Earned
        Fee – Example.”
   58
        Guidance in the NASA FAR Supplement describes how to apply the weighted scoring system: “A
        weighted scoring system appropriate for the circumstances of the individual contract requirement should
        be developed. In this system, each evaluation factor (e.g., technical, schedule, cost control) is assigned a
        specific percentage weighting with the cumulative weightings of all factors totaling 100. During the
        award-fee evaluation, each factor is scored from 0-100 according to the ratings defined in
        1816.405-275(b).”



REPORT NO. IG-14-031                                                                                                   41
                                                                                         RESULTS



     For the Boeing Contract, the Award-Fee Plan establishes weighted factor percentages, as
     shown in Figure 10.

                        Figure 10. Boeing Contract Award-Fee Plan Weights




     Source: Boeing Award-Fee Plan.

     However, NASA award-fee evaluations assigned scores to only two of these
     factors – performance to small business goals and cost performance – which together
     account for 40 percent of the overall score. ISS Program and procurement officials
     explained that the highly complex factor of management and technical performance,
     combined with the subjective nature of the award-fee process, often resulted in a wide
     divergence of opinions among individual monitors making it difficult to arrive at a
     mathematical score for those areas. Moreover, officials believed assigning a numerical
     score to that factor would not accurately reflect the overall effectiveness of Boeing’s
     performance and send a negative message regarding the company’s true performance.
     Therefore, they determined actual scores for management and technical performance in
     terms of “strengths” and “weaknesses.” In addition, they also stated that the safety and
     mission assurance factor was addressed as part of all evaluation factors and therefore
     found it unnecessary to assign that factor an individual score.




42                                                                          REPORT NO. IG-14-031
RESULTS



    Under the terms of the contract, the management and technical performance and safety
    and mission assurance factors account for 60 percent of the total award-fee score.
    Therefore, to verify the accuracy of the scores NASA gave Boeing, we analyzed the
    feasibility of achieving the approved award fee if NASA followed the established criteria
    in the Award-Fee Plan and these two categories were assigned a numerical score. We
    found that even if we assigned a score of 100 percent in these two categories Boeing
    could not have achieved the final recommended award fee. Rather, that award fee would
    have been at least $6.7 million less over eight award periods.59 (Table 9).

           Table 9. Analysis of Boeing Award-Fee Scores Assuming Score of 100 Percent
                                                                                          Auditor
                                                                      Auditor                                 FDO
                             Maximum          Actual                                   Calculation of
                                                            Percent Calculation                             Award vs.
Period of Performance        Award-Fee       Award-Fee                                   Weighted
                                                            Awarded of weighted                              Auditor
                              Available        Paid                                    Percentages to
                                                                    evaluations                               Score
                                                                                       Available Fee
10/1/2009      3/31/2010      $27,768,240     $26,657,510        96%           95%        $26,379,828        $277,682

4/1/2010       9/30/2010      $33,834,667     $31,127,894        92%           91%        $30,789,547        $338,347

10/1/2010      3/31/2011      $19,307,411     $18,535,115        96%           94%        $18,052,429        $482,685

4/1/2011       9/30/2011      $19,053,433     $17,719,702        93%           89%        $16,948,029        $771,673

10/1/2011      3/31/2012      $30,687,268     $28,846,032        94%           90%        $27,664,572       $1,181,460

4/1/2012       9/30/2012      $28,034,674     $26,913,287        96%           93%        $25,974,125        $939,162

10/1/2012      3/31/2013      $27,998,944     $27,158,976        97%           91%        $25,591,035       $1,567,941

4/1/2013       9/31/2013      $29,261,197     $28,383,361        97%           93%        $27,242,174       $1,141,187

Total                        $215,945,834    $205,341,876                                $198,641,740       $6,700,137
     Note: Numbers are rounded.
     Source: NASA OIG analysis of ISS Program data.

    Moreover, we considered the possibility that Boeing would have been assigned a score of
    100 percent for the management and technical performance and safety and mission
    assurance factors in every award-fee evaluation period unlikely. Therefore, staying
    within the “excellent” range of 91-100, we assigned a more realistic score of 95 percent
    to those categories. Using this score the amount of potentially excess award fee was
    more than $13 million over the eight periods of performance (Table 10).



    59
         We recognize the NASA Award-Fee Guide allows the Fee Determination Official (FDO) to award a
         contractor an amount other than what the Board recommends and that therefore the FDO could have
         increased Boeing’s award fee even if the Board had calculated weighted scores in all categories.




REPORT NO. IG-14-031                                                                                             43
                                                                                                   RESULTS



            Table 10. Analysis of Boeing Award-Fee Scores Assuming Score of 95 Percent
                                                                                     Auditor
                                                                      Auditor                         FDO
                             Maximum           Actual                             Calculation of
                                                            Percent Calculation                     Award vs.
Period of Performance        Award-Fee        Award-Fee                             Weighted
                                                            Awarded of weighted                      Auditor
                              Available         Paid                              Percentages to
                                                                    evaluations                       Score
                                                                                  Available Fee
10/1/2009     3/31/2010     $27,768,240      $26,657,510        96%        92%       $25,546,781    $1,110,730

4/1/2010      9/30/2010     $33,834,667      $31,127,894        92%        88%       $29,774,507    $1,353,387

10/1/2010     3/31/2011     $19,307,411      $18,535,115        96%        91%       $17,473,207    $1,061,908

4/1/2011      9/30/2011     $19,053,433      $17,719,702        93%        86%       $16,376,426    $1,343,276

10/1/2011     3/31/2012     $30,687,268      $28,846,032        94%        87%       $26,743,954    $2,102,078

4/1/2012      9/30/2012     $28,034,674      $26,913,287        96%        90%       $25,133,085    $1,780,202

10/1/2012     3/31/2013     $27,998,944      $27,158,976        97%        88%       $24,751,066    $2,407,909

4/1/2013      9/31/2013     $29,261,197      $28,383,361        97%        90%       $26,364,338    $2,019,023

Total                       $215,945,834     $205,341,876                           $192,163,365 $13,178,512
      Note: Numbers are rounded.
      Source: NASA OIG analysis of ISS Program data.

     We found that in every instance, the overall score awarded to Boeing could not be
     supported using the assigned weighted percentages for each evaluation factor established
     in the Award-Fee Plan. We calculated that based on these scores NASA paid Boeing
     between $6.7 and $13.2 million over a 4-year period that could not be validated or
     supported using the established criteria for the weighted evaluation scoring system.

     In today’s budget constrained environment, NASA needs to ensure its award-fee payment
     process is transparent and fees are fully justified. In our judgment, NASA would gain a
     more accurate assessment of contractor performance and provide the FDO with
     recommended award fees that match actual performance by using weighted and
     numerical scores in each category.

Management’s Response and Evaluation of Management’s
  Response

     NASA disagreed with our analysis of the Boeing award-fee process, and stated that we
     misinterpreted the facts and misconstrued the applicable regulations and program
     requirements. Specifically, the Associate Administrator stated that our analysis is
     premised on the inaccurate assumption that the Award-Fee Evaluation Plan “requires”
     the Agency to assign scores and points at the factor level, from which the final score
     “must” be arithmetically computed. The Associate Administrator said no such


44                                                                                REPORT NO. IG-14-031
RESULTS



   requirement exists in the Evaluation Plan or any other regulation or directive. He added
   that NASA officials based the award fees on a “qualitative assessment” of Boeing’s
   performance and that this was the most appropriate way to incentivize the company to
   perform well.

   We disagree with the Associate Administrator’s characterization of our report. We did
   not state that NASA was required to use a weighted scoring system. Rather, because the
   Evaluation Plan established a system of weighted scores, we attempted to validate the
   award fees Boeing received using that system and found we could not do so. Indeed, as
   explained in this report, even though we assumed Boeing received a 100 percent score on
   two of the major performance factors – management and technical performance and
   safety and mission assurance – we still could not replicate Boeing’s award fee. We
   acknowledged in the report that NASA’s FDO could have increased Boeing’s award fee
   even if the Performance Evaluation Board had calculated weighted scores for all four
   factors instead of just two. However, we believe the Board’s failure to provide the FDO
   with this information made NASA’s award-fee process less transparent and perhaps less
   reflective of the company’s actual performance.

   This is not the first time we have questioned NASA’s award-fee practices. In a
   November 2013 report, we found that overly complex award formulas and a contract
   clause designed to hold contractors accountable for the quality of the final product that
   disregards interim performance evaluations have diminished the effectiveness of NASA’s
   award-fee contracts.60 We also found NASA failed to collect required data on award-fee
   contracts, thereby reducing its ability to measure their effectiveness. Two
   recommendations from that audit have yet to be resolved. Most significantly, NASA
   continues to disagree with our position that the Agency’s practice of making unearned
   funds from interim award periods available in the final award pool circumvents a
   provision in the Federal Acquisition Regulation that prohibits Federal agencies from
   “rolling over” unearned fees to subsequent performance periods. In our view, NASA’s
   policy promotes a philosophy that as long as a mission ultimately provides good science
   data the Agency will overlook cost and schedule overages that occur during project
   performance.




   60
        NASA OIG, “NASA’s Use of Award-Fee Contracts” (IG-14-003, November 19, 2013).



REPORT NO. IG-14-031                                                                           45
APPENDIXES




                                                                            APPENDIX A

Scope and Methodology

   We performed this audit from September 2013 through August 2014 in accordance with
   generally accepted government auditing standards. Those standards require that we plan
   and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
   basis for our findings and conclusions based on our audit objectives. We believe that the
   evidence obtained provides a reasonable basis for our findings and conclusions based on
   our audit objectives.

   We assessed NASA’s progress in certifying the Station’s structure and hardware to meet
   the new lifespan by reviewing past ISS extension studies and interviewing ISS Program
   personnel. Specifically, we interviewed personnel involved with the electrical, thermal,
   structural, and life-support systems aboard the Station, as well as individuals who deal
   with transportation of cargo and crew. We reviewed NASA’s Fracture Control
   Requirements for Spaceflight Hardware document (NASA-STD-5019), and other Space
   Station Program (SSP) documentation, including the ISS Safety Analysis and Risk
   Assessment Requirements Document (SSP 30309), Safety Review Process (SSP 30599),
   Fracture Control Requirements for Space Station (SSP 30558), Certification Baseline
   Document Volume 4: International Space Station Lifetime Extension (SSP 50699), and
   the Safety Requirements Document (SSP 50021).

   To determine whether cost and schedule estimates associated with the extension were
   reasonable, we reviewed ISS Program life cycle cost estimates, the President’s Budget
   Requests for FYs 2014 and 2015, and independent government cost estimates for
   commercial cargo and crew transportation services. Moreover, we reviewed the
   solicitation for future cargo transportation services, cost estimates for ORUs (spares), and
   documentation associated with procurement of spares. We also interviewed senior
   NASA officials within the Human Explorations and Operations Mission Directorate, as
   well as personnel within the Station’s External Integration, Vehicle, Mission Operations
   and Integration, Program Planning and Control, and Flight Programs and Partnerships
   offices.

   In order to assess the progress made and plans in place to utilize the Station for both
   NASA and non-NASA users, we reviewed Memorandums of Understanding between
   NASA and the international partner agencies. We also reviewed NASA’s cooperative
   agreement with CASIS, and CASIS’ FY 2014 Annual Program Plan, FY 2013 quarterly
   reports, and FY 2013 Annual Report. In addition, we interviewed CASIS’ external
   partners, CASIS’ Executive Director, NASA’s Manager of the National Lab and
   supporting personnel, and NASA officials from the Human Research Program.
   Furthermore, we reviewed corresponding project documentation for the Human Research
   Program, such as risk assessments. To confirm the authorization for Station activities, we
   reviewed the NASA Authorization Acts of 2005, 2008, and 2010.


REPORT NO. IG-14-031                                                                              47
                                                                                     APPENDIX A




     Lastly, we reviewed contract award documents, award-fee modifications, Performance
     Evaluation Board reports, FDO letters, Contracting Officer Technical Representative
     delegations, cost benefit analyses, Determination and Findings documents, Award-Fee
     Plans and selected areas of the Boeing Contract (NAS15-10000), and selected areas of
     the COLSA Corporation Contract (NNM12AA10C), and the Teledyne Brown
     Engineering, Inc. Contract (NNM13AA29C). We also reviewed Defense Contract
     Management Agency internal audit reports, and spoke with agency officials about their
     audit work on the ISS Program. In addition, we interviewed ISS Procurement Office
     personnel.

     All work was performed at NASA Headquarters, Johnson, and Marshall Space Flight
     Center.

     Use of Computer-Processed Data. We used computer-processed data to perform this
     audit. Specifically, we collected budget, commitment, obligation, disbursement, and total
     cost data from FY 2009 to early FY 2014. ISS Program officials downloaded the data
     from NASA's Business Warehouse system and provided the data in Microsoft Excel
     format. In order to verify the accuracy of this data, we independently ran queries through
     the Business Warehouse system using bookmarks. We corroborated information with
     other sources such as prior President's Budget Requests and life cycle cost estimates. We
     analyzed this data to enable us to evaluate the budgetary/cost information for the
     Program. The results of these analyses were used in the report. We believe the cost data
     we received is sufficiently reliable; therefore, we did not rely solely on the
     computer-processed data to support our findings, conclusions, or recommendations.

Review of Internal Controls

     We performed an assessment of the internal controls associated with our audit, including
     identifying controls that are in place to monitor and assess ISS cost, schedule, and
     performance. Throughout the audit we reviewed controls associated with the audit
     objectives and identified that NASA has a comprehensive set of management tools it uses
     to provide internal controls for the ISS Program. This includes numerous boards and
     working groups, mission control centers, and procedures identified in the ISS Program
     Plan.

     Further, the ISS Program has complied with NASA’s internal control guidance, which
     requires submitting an annual certification of reasonable assurance. There were no
     material weaknesses identified. This has been the trend over the past 4 years, but is
     unusual given the size and scope of the Program and its 29 major contracts. Moreover,
     the ISS Program is overdue on a NASA plan – approved by the Office of Management
     and Budget – to conduct an acquisition assessment once every 3 years for contracts with
     a value over $250 million. NASA’s Internal Control Plans do not have a scheduled
     assessment in FY 2014 – the last acquisition assessment was in 2010.



48                                                                          REPORT NO. IG-14-031
APPENDIX A



Prior Coverage

   During the last 5 years, the NASA OIG and GAO have issued nine reports of particular
   relevance to the subject of this report. Unrestricted reports can be accessed over the
   Internet at http://oig.nasa.gov/audits/reports/FY14 and http://www.gao.gov.

   NASA Office of Inspector General

   “NASA’s Management of the Commercial Crew Program” (IG-14-001,
   November 13, 2013)

   “NASA’s Efforts to Maximize Research on the International Space Station” (IG-13-019,
   July 8, 2013)

   “Commercial Cargo: NASA’s Management of Commercial Orbital Transportation
   Services and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013)

   “NASA's Challenges Certifying and Acquiring Commercial Crew Transportation
   Services” (IG-11-022, June 30, 2011)

   Government Accountability Office

   “NASA: Significant Challenges Remain for Access, Use, and Sustainment of the
   International Space Station” (GAO-12-587T, March 28, 2012)

   “National Aeronautics and Space Administration: Acquisition Approach for Commercial
   Crew Transportation Includes Good Practices, but Faces Significant Challenges”
   (GAO-12-282, December 15, 2011)

   “International Space Station: Approaches for Ensuring Utilization through 2020 are
   Reasonable but Should Be Revisited as NASA Gains More Knowledge of On-Orbit
   Performance” (GAO-12-162, December 15, 2011)

   “International Space Station: Ongoing Assessments for Life Extension Appear to be
   Supported” (GAO-11-519R, April 11, 2011)

   “International Space Station: Significant Challenges May Limit Onboard Research”
   (GAO-10-9, November 25, 2009)




REPORT NO. IG-14-031                                                                        49
                                                                            APPENDIX B




                                             ISS TOP PROGRAM RISK MATRIX

     Figure 11 chronicles the top risks to the ISS Program.

                           Figure 11. ISS Top Program Risk Matrix




     Source: NASA.




50                                                                  REPORT NO. IG-14-031
APPENDIX C




                       MANAGEMENT COMMENTS




REPORT NO. IG-14-031                         51
             APPENDIX C




52   REPORT NO. IG-14-031
APPENDIX C




REPORT NO. IG-14-031   53
                                                                                 APPENDIX D




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Associate Administrator for the Human Exploration and Operations Mission Directorate
     Director, International Space Station Division
     Program Manager, International Space Station

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




54                                                                      REPORT NO. IG-14-031
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Kevin Fagedes, Project Manager
   Letisha Antone, Auditor
   Gina Davenport, Auditor
   Michael Palinkas, Management Analyst
   Frank Martin, Aerospace Technologist
   Cedric Campbell, Associate Counsel to the Inspector General - Central Region




REPORT NO. IG-14-031                                                              55
                                                                            SEPTEMBER 18, 2014
                                                                    REPORT NO. IG-14-031




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
